<html>
<title> - HEARING ON H.R. 1522, TO EXTEND THE AUTHORIZATION FOR THE NATIONAL HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON H.R. 1522, TO EXTEND THE AUTHORIZATION FOR THE NATIONAL 
           HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                    OCTOBER 21, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-66

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-552 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 21, 1997....................................     1

Statements of Members:
    Christian-Green, Hon. Donna M., a Representative in Congress 
      from the Virgin Islands....................................     6
    Faleomavaega, Hon. Eni F.H., a Representative in Congress 
      from American Samoa........................................     3
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2
        Letter from the Architect of the Capitol to Mr. Hansen...   102
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     4
        Prepared statement of....................................     5

Statements of witnesses:
    Barrett, Brenda, Director, Pennsylvania Bureau of Historic 
      Preservation...............................................    23
        Prepared statement of....................................    77
    Fowler, John M., Executive Director, Advisory Council on 
      Historic Preservation......................................    11
    Hertfelder, Eric, Executive Director, National Conference of 
      State Historic Preservation Officers.......................    20
    Keck, John T., State Historic Preservation Officer, Wyoming 
      State Historic Preservation Office.........................    22
        Prepared statement of....................................    68
    Nettler, Richard, Chairman of the Board, Preservation Action.    29
        Prepared statement of....................................    79
    Norton, Edward M., Vice President--Law and Public Policy, 
      National Trust for Historic Preservation...................    33
        Prepared statement of....................................    82
    Peck, Robert A., Commissioner, Public Buildings Service, 
      General Services Administration............................     9
        Prepared statement of....................................    47
    Stanton, Robert G., Director, National Park Service, 
      accompanied by Kate Stevenson, Associate Director for 
      Cultural Resources.........................................     7
        Prepared statement of....................................    43
    Williams, Jack, AIA, President-Elect, National Alliance of 
      Preservation Commissions...................................    34
        Prepared statement of....................................    95
    Wise, H. Alexander, Jr., State Historic Preservation Officer 
      and Director, Virginia Department of Historical Resources..    20
        Prepared statement of....................................    53

Additional material supplied:
    Text of H.R. 1522............................................    39
    Slater, Cathryn Buford, Chairman, Advisory Council on 
      Historic Preservation......................................    50



  HEARING ON H.R. 1522, TO EXTEND THE AUTHORIZATION FOR THE NATIONAL 
           HISTORIC PRESERVATION FUND, AND FOR OTHER PURPOSES

                              ----------                              


                       TUESDAY, OCTOBER 21, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1324, Longworth House Office Building, Hon. James V. 
Hansen [chairman of the subcommittee] presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order. Good morning. 
The Subcommittee on National Parks and Public Lands will come 
to order.
    This morning the Subcommittee will hear testimony of H.R. 
1522, a bill to reauthorize the National Historic Preservation 
Fund and for other purposes, which would amend the National 
Historic Preservation Act of 1966, as amended. The bill was 
introduced by our distinguished colleague, Joel Hefley, a 
Subcommittee Member and a very knowledgeable and dedicated 
supporter of historic preservation in Colorado and the Nation. 
We look forward to your opening remarks on the bill H.R. 1522.
    [The information may be found at end of hearing.]
    Mr. Hansen. The hearing today is very timely. The National 
Historic Preservation Act of 1966, as amended in 1976, 1980, 
and most recently in 1992, has worked well for over 30 years. 
The major reason for H.R. 1522 is to provide congressional 
authorization for the Historic Preservation Fund, which expires 
on September 30, 1997, until September 30, 2002. However, 
Congress has reviewed and amended the original Act on occasion, 
and Mr. Hefley's H.R. 1522 offers a unique opportunity to see 
if the interaction of historic preservation at the national, 
State and local levels is in need of new direction. The 
distinguished panelists we will receive testimony from today 
will provide professional insight into many aspects of this 
important historic preservation program.
    I am especially interested in this hearing today because of 
the action that the House of Representatives took on October 7, 
1997, in passing H.R. 1127, the National Monument Fairness Act 
of 1997, which I introduced to amend the Antiquities Act of 
1906. Congress again reviewed historic preservation 
authorities. As most of the panelists are aware, the 1906 
Antiquities Act was the original Historic Preservation Act of 
this Nation. It is the forerunner of the 1916 Organic Act that 
created the National Park Service, the 1935 Historic Sites Act 
and the 1966 National Historic Preservation Act we are 
considering today.
    I made statements on the House floor to inform my 
colleagues about the tremendous advantage of historic 
preservation, land protection, and environmental law that 
Congress has passed in the 90 years since Congress provided the 
President with the intended authority of the 1906 Antiquities 
Act. We continue that process today. I look forward to the 
discussion of H.R. 1522.
    I recognize my distinguished colleague, Mr. Faleomavaega of 
America Samoa, the Ranking Member of the Subcommittee, for his 
opening remarks, and following his remarks I will recognize Mr. 
Hefley, the sponsor of the bill we are considering today, and 
any other Subcommittee members that come in, and then we will 
go to our panel.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good Morning. The Subcommittee on National Parks and Public 
Lands will come to order.
    This morning the Subcommittee will hear testimony on H.R. 
1522, a bill to reauthorize the National Historic Preservation 
Fund and for other purposes, which would amend the National 
Historic Preservation Act of 1966, as amended.
    This bill was introduced by our distinguished colleague, 
Joel Hefley, a Subcommittee member, and a very knowledgeable 
and dedicated supporter of historic preservation in Colorado 
and the Nation. We look forward to your opening remarks on your 
bill, H.R. 1522.
    The hearing today is very timely. The National Historic 
Preservation Act of 1966, as amended in 1976, 1980, and most 
recently in 1992, has worked well for over 30 years. The major 
reason for H.R. 1522 is to provide Congressional authorization 
for the Historic Preservation Fund, which expired on September 
30, 1997, until September 30, 2002. However, Congress has 
reviewed and amended the original Act on occasion, and Mr. 
Hefley's H.R. 1522 offers a unique opportunity to see if the 
interaction of historic preservation at the National, State, 
and local levels is in need of new direction. The distinguished 
panelists we will receive testimony from today will provide 
professional insight into many aspects of this important 
historic preservation program.
    I am especially interested in this hearing today because of 
the action that the House of Representatives took on October 7, 
1997. In passing H.R. 1127, the National Monument Fairness Act 
of 1997 which I introduced to amend the Antiquities Act of 
1906, Congress again reviewed historic preservation 
authorities. As most of the panelists are aware, the 1906 
Antiquities Act was the original historic preservation Act of 
this Nation. It is the forerunner of the 1916 Organic Act that 
created the National Park Service, the 1935 Historic Sites Act, 
and the 1966 National Historic Preservation Act we are 
considering today. I made statements on the House floor to 
inform my colleagues about the tremendous advance of historic 
preservation, land protection, and environmental law that 
Congress has passed in the 90 years since the Congress provided 
the President with the intended authority of the 1906 
Antiquities Act. We continue that process today. I look forward 
to the discussion on H.R. 1522.
    I recognize my distinguished colleague, Mr. Faleomaveaga, 
of American Samoa, the Ranking Member of this Subcommittee, for 
his opening remarks.
    Following any other opening remarks, I recognize Mr. Hefley 
to elaborate on the details of H.R. 1522 for the benefit of the 
Subcommittee and all present today.
    The Subcommittee welcomes the distinguished witnesses that 
will appear today. On our first panel, we are pleased to have 
Mr. Bob Stanton, recently confirmed Director of the National 
Park Service. This will be his first official testimony as 
Director before this Subcommittee, and we look forward to many 
more visits in the future. The Subcommittee is also pleased to 
have Mr. Bob Peck, Commissioner of the Public Buildings 
Service, of the U.S. General Services Administration, and Mr. 
John Fowler, recently selected as the Executive Director of the 
Advisory Council on Historic Preservation, after serving in an 
acting capacity for many months.
    The second panel consists of representatives of the 
National Conference of State Historic Preservation Officers. I 
welcome Mr. Eric Herfelder, Executive Director of the 
Conference; Mr. Alexander Wise, Jr. the State Historic 
Preservation Officer for the Commonwealth of Virginia; Mr. John 
Keck the Wyoming State Historic Preservation Officer; and Ms 
Brenda Barrett, Director, Bureau of Historic Preservation for 
the Commonwealth of Pennsylvania.
    The third panel consists of historic preservation experts 
and advocates representing the local, State, and National 
levels. We welcome Mr. Richard Nettler, Chairman of the Board 
of Preservation Action; Mr. Edward Norton, Vice President-Law 
and Public Policy for the National Trust for Historic 
Preservation. Mr. Norton it is good to see you again. The last 
time you appeared before us we were discussing the Arches 
National Park Expansion bill. And Mr. Jack Williams, President-
Elect for the National Alliance of Preservation Commissions.

    Mr. Hansen. Mr. Faleomavaega.

 STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A REPRESENTATIVE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. Before 
proceeding and offering my statement for the Subcommittee, I 
certainly would like to offer my personal welcome to our 
Director of the Nation Park Service, who is with us this 
morning, and look forward to his statement, and I certainly 
want to thank my good friend and colleague from Colorado for 
having introduced this piece of legislation, and I look forward 
to working with him to see what the problems underlying the 
National Historic Preservation Act are.
    Mr. Chairman, this morning we are here to receive testimony 
to H.R. 1522, introduced by our colleague, Mr. Hefley, to 
reauthorize the funding for the National Historic Preservation 
Fund and make several changes to the National Historic 
Preservation Act. I commend the gentlemen for all his hard work 
in this area and for initiating this piece of legislation.
    The Historic Preservation Act enacted in 1966, established 
a comprehensive program through which the Federal, the State, 
tribal and local historic resources have been protected. The 
National Register of Historic Places now has over 62,000 sites 
listed. The Governor of each State and territory appoints a 
State historic preservation officer to administer the Historic 
Preservation Program within its boundaries. Several Indian 
tribes have now taken over the historic preservation programs 
on their respective reservations, and the Advisory Council on 
Historic Preservation advises the President and Congress and 
makes recommendations to help coordinate preservation 
activities. This successful program shows what can be done when 
government at each level is willing to work together or for a 
common cause, and that is the protection and the preservation 
of our culture and our history.
    The bill before us today would extend the authorization of 
the National Historic Preservation Fund through the year 2002. 
I wholeheartedly support the extension of the fund's 
authorization and would even support a 10-year reauthorization.
    The bill then goes on to make several other changes to the 
current program, which I am not yet convinced needs to be made. 
Several provisions would transfer authority away from the 
Secretary of the Interior and places it with the Advisory 
Council on Historic Preservation. I am not aware of specific 
problems which exist to warrant such a change and wonder if 
these actions could alter the original purpose of the Council. 
Perhaps after hearing from our expert witnesses today, we will 
be in a better position to understand a little more of the 
proposed changes, and like I said, I look forward to working 
with the gentleman from Colorado for this proposed bill. Thank 
you, Mr. Chairman.
    Mr. Hansen. Thank you.
    The gentleman from Colorado.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman.
    Mr. Chairman, it seems to me one of the fundamental roles 
of government is the preservation of its cultural values. To 
paraphrase one historian, we are unlikely to deal well with our 
future if we do not understand our past. Since 1966, the 
Historic Preservation Fund has been part of the way this Nation 
seeks to accomplish that.
    The program has been successful, and what this bill is 
designed to do is to make it work even better. And I think all 
of us are in agreement on the goals, and it is the matter of 
how do we get from here to there. And I hope that we think in 
terms of H.R. 1522 as being a starting point, maybe not the end 
destination. And I would agree with my friend from American 
Samoa that I think we have an outstanding group of panelists 
here today and of experts, and we will take their input, and 
then we will try to put together the ideas that seem to work 
best.
    The National Register of Historic Places includes over 
800,000 building sites and objects. The National Trust for 
Historic Preservation appears ready to stand on its own without 
government funding. Most importantly today, it would be 
unthinkable to raze landmarks like New York's Penn Station 
without major public debate, but that hasn't always been the 
case.
    H.R. 1522 attempts to reflect what is happening in the 
States. It makes no changes to a funding formula which through 
State innovation has resulted in a significant degree of 
private involvement in these programs. It also gives States the 
flexibility to design their own preservation offices. It leaves 
them the final arbitrator of the in-State eligibility disputes.
    H.R. 1522 reserves the biggest changes for the Federal 
Government's role. The bill shifts the bulk of government 
administrative support from the National Park Service to the 
Advisory Council on Historic Preservation. The Council has 
demonstrated its ability as a lean, competent arbitrator of 
problems and disputes in the preservation arena. I believe it 
is time to see whether the Council can apply these skills in a 
broader role.
    The bill codifies Executive Order 13006 on locating Federal 
facilities on historical properties in our Nation's central 
cities. Until recently, the Postal Service built new post 
offices every 10 years, moving further and further out of the 
central cities. Too often the Park Service opts for a new 
visitors' center, overusing historic buildings, these often 
connected with the very sites they seek to interpret.
    I think Executive Order 13006 is a good idea, but the 
administration seems to feel it needs more time. Today I hope 
to find out why.
    Finally, we will examine the place of preservation in our 
Nation's capital. The White House, the Capitol and the Supreme 
Court are exempt from historic preservation laws. Security 
concerns are blamed, but somehow DOD manages to do a pretty 
good job of complying, even though there are security aspects 
there. Why not for these three sites?
    I realize historic preservation still makes some people 
nervous. How many sites are on the National Register is worthy 
of a hearing of its own, but I prefer to thinks this program 
reflects what we have attempted to do in the past two 
Congresses. It has devolved on its own over the past 30 years 
while helping communities retain a sense of their own 
uniqueness. I hope H.R. 1522 continues that effort, and with 
that I will close and look forward to hearing today's 
witnesses.
    Mr. Hansen. Thank you.
    [The prepared statement of Mr. Hefley follows:]

 Statement of Hon. Joel Hefley, a Representative in Congress from the 
                           State of Colorado

    Mr. Chairman, it seems to me a fundamental role of 
government is the preservation of cultural values. To 
paraphrase one historian, we are unlikely to deal well with our 
future if we do not understand our past. Since 1966, the 
Historic Preservation Fund has been a major element in how this 
nation seeks to accomplish that end.
    While some may argue as to degree, I don't think anyone 
believes this program hasn't been a success. The National 
Register of Historic Places now includes over 800,000 
buildings, sites and objects. Preservation is now a big enough 
industry that we can ask the National Trust to stand on its 
own. More importantly, it's now unthinkable to raze a landmark 
building--such as Penn Station in New York--without public 
debate. That wasn't always the case.
    But even successful laws must reflect the reality of the 
outside world. H.R. 1522 attempts to reflect these changes. The 
bill reflects the success states have had at leveraging private 
sector involvement and in defining their own programs. It 
codifies the agreement to privatize the National Trust. It 
leaves the states as the final judge of eligibility disputes.
    H.R. 1522 reserves its biggest changes for those areas 
involving the Federal Government. My bill shifts the bulk of 
government support for historic preservation from the National 
Park Service to the Advisory Counsel on Historic Preservation. 
Over the years, the Council has proven itself to be a lean, 
competent arbiter of problems and disputes which have arisen in 
preservation. I believe it is time to see whether they can 
bring these same attributes to a broader role.
    Second, H.R. 1522 codifies Executive Order 13006, on 
locating Federal facilities on historic properties in our 
nation's central cities. Until recently, it has been the policy 
of the U.S. Postal Service to build new post offices every 10 
years, leaving the old ones behind and moving further and 
further out from the cities' centers. There are Park Service 
units where visitors' centers have been built in sight of 
historic properties directly associated with the site these 
centers interpret. What is the logic of this? But while 
Executive Order 13006 is a good idea that will help communities 
and probably save us some money, the administration's reaction 
to H.R. 1522 has been, ``We need more time?'' We hope to 
examine this lack of confidence.
    Finally, we will examine the place of historic preservation 
here in our nation's capital. Three of the nation's landmarks--
the Capitol, the White House and the Supreme Court building--
are exempted from the nation's preservation laws. Why is this 
so? Security concerns are mentioned yet defense facilities 
grudgingly manage to comply. I hope we'll find out why these 
sites feel they should be exempt.
    I realize historic preservation makes some people nervous. 
How sites are listed on the National Register is worth a 
hearing of its own. But I prefer to think this program reflects 
all that we have attempted to do in the past two Congresses. It 
has devolved on its own over the past 30 years while helping 
communities retain a sense of their own uniqueness. I hope H.R. 
1522 continues that effort. With that I'll close and I look 
forward to hearing from today's witnesses.

    Mr. Hansen. The gentlelady from the Virgin Islands.

STATEMENT OF HON. DONNA M. CHRISTIAN-GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christian-Green. Thank you, Mr. Chairman, for allowing 
me to make these brief opening remarks, and I want to use my 
time to welcome the new Director of the National Park Service 
as he makes his debut appearance before the Subcommittee today.
    As you know, Mr. Chairman, Director Stanton comes to the 
position of head of the National Park Service with a career in 
service which spans over 34 years, beginning as a seasonal park 
ranger at the Grand Teton National Park in Wyoming to regional 
director of the National Capital Region in Washington, DC. But 
of all the positions he has held with the Park Service, my 
constituents and I, especially those on the island of St. John, 
are especially proud of the 3 years he spent with us as the 
Superintendent of the Virgin Islands National Park. He came to 
that position at a time when there were a number of tensions 
between the Park Service and the local community, and the very 
small island of St. John, which is over two-thirds the national 
park. Seeking to instill more community input into the park's 
management decisions, Mr. Stanton established various NPS 
community councils, which served to resolve most of the local 
disputes at the time.
    So as you can see, Mr. Chairman, people of the Virgin 
Islands and I are very proud of Mr. Stanton's appointment as 
National Park Service Director and look forward to him doing 
great things during his tenure in office.
    And with respect to the legislation before us today, Mr. 
Chairman, I am reminded of the old axiom, if it ain't broken, 
don't fix it. And while the reauthorization of any major piece 
of legislation like the National Historic Preservation Fund is 
generally something we are all in favor of, it is unclear what 
problems may exist that warrant the changes that are being 
proposed. I am confident, however, that the issues, as I 
listened to the opening statement of my Ranking Member and Mr. 
Hefley, that the issues in dispute will be resolved, and I look 
forward to hearing from our witnesses this morning.
    Mr. Hansen. Thank you.
    The gentleman from Nevada.
    Mr. Gibbons. No comments.
    Mr. Hansen. And the gentlemen from Michigan City has no 
opening remarks.
    The Subcommittee welcomes our guests today. We are pleased 
to have Mr. Bob Stanton, recently confirmed as Director of the 
National Park Service. It is a pleasure to have you with us. We 
hope we have many occasions to have you here in a congenial and 
amicable, get-along attitude, which we know you portray.
    We are also grateful Kate Stevenson is accompanying 
Director Stanton. We are happy to have you with us at this 
time. I guess this is your first testimony before this 
Committee; is that right, Director?
    Mr. Stanton. That is right.
    Mr. Hansen. We appreciate having you here.
    We are also pleased to have Mr. Bob Peck, Commissioner of 
the Public Building Service of the U.S. General Service 
Administration; Mr. John Fowler, recently selected as Executive 
Director of the Ad-

visory Council on Historic Preservation, after serving in his 
acting capacity for many months.
    The second panel will consist of representatives of the 
National Conference of State Historic Preservation Officers. I 
welcome Mr. Eric Hertfelder, Executive Director of the 
Conference; Mr. Alexander Wise, Jr., the State Historic 
Preservation Officer for the Commonwealth of Virginia; Mr. John 
Keck, the Wyoming State Historic Preservation Officer; and Ms. 
Brenda Barrett, Director of the Bureau of Historic Preservation 
of the Commonwealth of Pennsylvania.
    The third panel consists of historic preservation experts 
and advocates, representing the local, State and national 
levels. We welcome Mr. Richard Nettler, Chairman of the Board 
of Preservation Action; Mr. Edward Norton, Vice President of 
Public Policy of the National Trust for Historic Preservation. 
It is good to see Mr. Norton again. I think you were here the 
last time. You appeared before us discussing the Arches 
expansion; And Mr. Jack Williams, President-elect of the 
National Alliance of Preservation Commission.
    We will ask the first panel to come forward at this time, 
and that again is Mr. Bob Stanton, and Mr. Bob Peck and Mr. 
John Fowler. Now, gentlemen and lady, let me say that we are 
always under a time constraint around this place. Whistles are 
going off, bells are ringing, and lights are flashing, and, 
therefore, we would really urge you to stay within your 5 
minutes if you could. We will have a gentle reminder there in 
front of you, and it is three lights. It is just like a traffic 
light: Green, go wild; yellow, be careful you don't run it; and 
red, I bang this gavel and yell at you. No, honestly, I won't 
do that. If you have a burning desire to take a couple more 
minutes, and considering the gravity and seriousness of this 
situation, by all means take it, but I would appreciate it if 
you could stay within the 5 minutes.
    Mr. Hansen. Director Stanton, we will start with you, sir.

    STATEMENT OF ROBERT G. STANTON, DIRECTOR, NATIONAL PARK 
SERVICE, ACCOMPANIED BY KATE STEVENSON, ASSOCIATE DIRECTOR FOR 
                       CULTURAL RESOURCES

    Mr. Stanton. Mr. Chairman, distinguished members of this 
Committee, I appreciate the opportunity to appear before you, 
and certainly I am pleased to be joined by Associate Director 
for Cultural Resources, Ms. Kate Stevenson.
    Mr. Chairman, again, thank you for this opportunity to 
offer the views of the Department of Interior on H.R. 1522, a 
bill to extend authorization for the Historic Preservation Fund 
and for other purposes. We strongly support the reauthorization 
of the Historic Preservation Fund; however, we have some 
opposition to the amendments to the Historic Preservation Act 
enumerated in bill H.R. 1522.
    The Historic Preservation Fund established by section 108 
of the Historic Preservation Act is the authority on which 
Congress appropriated matching funds to State tribes, local 
governments and the National Trust for Historic Preservation to 
carry out activities under the National Historic Preservation 
Program. The Historic Preservation Grant Program supports the 
identification and the protection by citizens of the Nation's 
irreplaceable historical and archeological resources for this 
and for future generations.
    Reauthorization of the Historic Preservation Fund has no 
direct budgetary impact in that outlays occur solely through 
the appropriation process. The annual cost of the Historic 
Preservation Fund Grant Program to each American citizen is 
roughly 12 cents a year. We believe this is a good value for 
all of us.
    With regard to other elements of the bill, when taken 
together, amendments 4, 9, 10, 11, and 12 remove the Office of 
the Secretary of the Interior from its role as the Nation's 
leader and coordinator of historic preservation policy for 
Federal agencies. The Department, acting through the National 
Park Service, as the Nation's principal conservation agency, 
has unique authority and expertise in fostering sound use of 
our land and the preservation of our Nation's resources. The 
National Park Service is the most outstanding agency within the 
Federal Government to work closely with all organizations in 
carrying out the preservation of our culture and historical 
resources and to assist other agencies in their respective 
programs. This, in our judgment, should not be changed, and we 
recommend that the amendments be deleted.
    Amendment 13 of H.R. 1522 gives the Advisory Council of 
Historic Preservation authority to take appropriate action to 
resolve historic preservation disagreements and thereby changes 
the Council's advisory role from a mediator to an arbitrator 
with final authority over every Federal undertaking affecting 
historic and archeological resources. As then Assistant 
Secretary for Fish and Wildlife Service George Frampton pointed 
out in his May 1996 letter to Congress, such a change in the 
Advisory Council authority has the potential to interfere with 
the primary mission of Federal agencies, and, according to a 
Department of Justice statement, would violate the appointments 
clause of the Constitution. The Department of Interior remains 
opposed to this provision and recommends that it be deleted.
    Amendment 15 changes the definition of ``undertaking'' from 
``a project, activity or program funded in whole or in part 
under the direct or indirect jurisdiction of a Federal agency'' 
to ``a project, activity, or program with potential to affect 
historic properties funded in whole or in part under the direct 
or indirect jurisdiction of a Federal agency.'' The impact of 
this definition change is unclear, but it has, in our judgment, 
the potential to be interpreted to eliminate protection of a 
wide range of historic and archeologic resources. We therefore 
are opposed to it and recommend its deletion.
    Amendment 2 of the bill restricts the Department of 
Interior's authority, acting through the Keeper of the National 
Register, to assess a property's historic significance by 
eliminating a determination of eligibility of National 
Register-nominated properties that cannot be listed because of 
owner objection. The Secretary, in our view, should not be 
precluded from making an unbiased professional determination of 
fact about the historical significance of such properties. 
Therefore, we recommend that amendment 2 be deleted from the 
bill.
    State Historic Preservation Offices have previously 
overwhelmingly objected to the idea, proposed in amendment 5 to 
the bill, to remove the Secretary's authority to set 
professional standards for State Historic Preservation Office 
staff. When offered the opportunity in late 1996 as part of a 
Federal Register review and comment process, no State Historic 
Preservation Office objected to the regulatory provision 
regarding professional staff H.R. 1522 seeks to erase. We 
oppose this amendment as well and recommend it be deleted.
    Lastly, amendment 1 of the bill for National Historic 
Landmark districts, without officially established boundaries 
as of the year 2007, would automatically delist the district 
from the National Register and presumably redesignate the 
National Historic Landmark as well. This proposal potentially 
creates legal exposure for the government and property owners. 
In some of these districts, regardless of the final decision, 
both the process and result of settling boundary issues will be 
controversial and will entangle the government in legal 
challenges over notification issues and prior benefits derived 
from the National Historic Landmark and National Register 
status. Also, where tribal properties are concerned, it may be 
difficult to determine exact boundaries. Delisting these 
properties from the National Register, in our view, would 
conflict with the government's trust responsibilities for 
Indian tribes, and we therefore recommend the deletion of this 
amendment.
    In summary, Mr. Chairman and members of the distinguished 
Committee, it is the Department of Interior's position that the 
Historic Preservation Fund be reauthorized through the year 
2002, but that no substantive change be made at this time to 
the National Historic Preservation Act.
    Mr. Chairman, this concludes my remarks. Ms. Stevenson and 
I would be more than happy to respond to any question or 
comments you and members of the Committee may have.
    Mr. Hansen. Thank you, sir.
    [The prepared statement of Mr. Stanton may be found at end 
of hearing.]
    Mr. Hansen. Mr. Peck.

  STATEMENT OF ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS 
            SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Thank you, Mr. Chairman, Mr. Faleomavaega, 
members of the Subcommittee, I am pleased to be here on behalf 
of the General Services Administration; also happy to report to 
you that the President has recently announced his intention to 
designate our Administrator Dave Barram as a member of the 
advisory Council on Historic Preservation, a seat which we have 
held for many years.
    I have a statement I would like to submit for the record, 
and I will summarize it.
    We have a very large inventory of historic buildings in the 
General Services Administration. Of the 1,800 and some 
government-owned buildings which we operate, 200 are on the 
National Register and another 200 are eligible for listing; 12 
are individual historic landmarks. We are proud of those 
buildings and work very hard to maintain them and keep them up.
    I should tell you, although it is not your jurisdiction, 
that we have a very large backlog of rehabilitation needs. I 
know you hear this from the Park Service all the time. We have 
the same situa-

tion with our inventory as well. We are working very hard to 
try to find the funds for rehabilitation, both within our 
resources, which come in the form of rents from Federal 
agencies who are our tenants, as well as through appropriations 
and other creative financing means. One such means I will refer 
to in a few moments is the authority the National Historic 
Preservation Act gives us to help rehab our own buildings.
    I grew up in Washington. I am very proud of the buildings 
we have here. I should tell you, the GSA was not always, in my 
opinion, the best steward of its properties. Years ago when I 
became active in what was called ``Don't Tear It Down,'' 
subsequently the DC Preservation League, which I was proud to 
serve as volunteer president for 6 years, we had to go to court 
to keep GSA from tearing down some old buildings. That is no 
longer the case.
    All over the country GSA has rehabbed buildings. In 
conjunction with a very large courthouse construction program 
which we have under way, we are renovating a great number of 
the 19th and early, mid-20th century courthouses which we 
inherited. I hope you will have an opportunity to see some of 
them. The recent renovation of the U.S. Court of Appeals 
building in San Francisco is truly a landmark renovation 
project; similarly in Denver, the Byron White Courthouse is a 
gorgeous building.
    I would also note that we have a number of authorities 
aside from the National Historic Preservation Act which give us 
the opportunity to work with historic buildings. One is the 
Public Buildings Cooperative Use Act enacted in 1976, which 
allows mixed uses in Federal buildings and also orders the 
Administrator of General Services, where possible, in acquiring 
or leasing Federal building space for Federal agencies to make 
use of historic buildings not in the government inventory. We 
have under way at the moment a study to find out where in our 
various rules and regulations we may have self-inflicted some 
wounds on our ability to lease space in historic buildings 
around the country.
    We are putting exhibits in our buildings to interpret them 
as well, so that the public is made aware of the magnificent 
history that Congress and Presidents have bestowed upon us.
    I just wanted to note the one provision we strongly support 
in the Act is section 111, only enacted, I believe, in 1992, 
which gives Federal agencies the authority, when they no longer 
have a governmental need for a historic building, to lease it 
to the private sector. We are using this authority in GSA for 
the first time to solicit offers for redevelopment, including 
historic preservation for the General Post Office Building in 
Washington at 7th and F Street, this building was designed 
originally in the 1840s by Robert Mills as the general post 
office for the city, and was subsequently known as the Tariff 
Commission Building. It is a national historic landmark.
    Of course, one of the reasons you have me here this morning 
is to discuss Executive Order 13006, which President Clinton 
issued last year, and which piggybacked on Executive Order 
12072, issued by President Carter. 12072 directs Federal 
agencies, not just GSA, but all Federal agencies, to locate 
their facilities in the central business areas of cities. We 
obviously have a large responsibility in carrying out that 
order, and 13006 extended that by saying that in addition to 
downtown locations, we should particularly look for buildings 
in historic districts and individual landmark buildings.
    We do not believe it is necessary to codify Executive Order 
13006, in part because we feel we are having success with the 
Executive Order as it stands. Moreover, Executive Order 12072 
consistently has been construed, and there have been court 
cases on it, as a Presidential directive that to us has the 
force and effect of law, one that we cannot ignore in our 
procedures. We obviously regard Executive Order 13006 the same 
way.
    I should note that I am concerned section 1 of H.R. 1522 
establishes a priority for historic properties, without taking 
into consideration requirements of the Rural Development Act, 
which we are required by law to follow in making location 
decisions, and the location policy in Executive Order 12072. 
The language in the bill does not quite track with the language 
in Executive Order 13006. Moreover, in Executive Order 13006, 
we have the necessary flexibility and discretion we must have 
in locating Federal facilities in historic properties. Both 
mission needs and, particularly these days, security needs 
sometimes preclude our finding space in historic buildings. We 
know that many times I should hasten to say, those security and 
operational needs can be accommodated, but we think the 
language in particular that notes in the executive order that 
we find space in historic properties, ``where operationally 
appropriate and economically prudent,'' is very important 
language.
    Finally, I will just note in this regard, legislation and 
executive orders can order us to do things. Real estate is a 
business, which, as we say in the business, everything is 
location, location, location, and each decision is unique, and 
we need a little bit of flexibility there in making those 
decisions. Having said that, I want you to know I personally, 
our Administrator personally, because of his background and his 
values, and our agency as an agency, are very enthusiastic 
about locating our facilities in historic properties, and in 
making the very hard decisions, and doing the tough work that 
is necessary to make them work for modern government office 
space.
    Mr. Chairman and members, I am happy to answer any 
questions you have.
    Mr. Hansen. Thank you, Mr. Peck.
    [The prepared statement of Mr. Peck may be found at end of 
hearing.]
    Mr. Hansen. Mr. Fowler, I will return to you, sir.

   STATEMENT OF JOHN M. FOWLER, EXECUTIVE DIRECTOR, ADVISORY 
                COUNCIL ON HISTORIC PRESERVATION

    Mr. Fowler. Thank you, Mr. Chairman. At the outset I would 
like to take this opportunity to express the appreciation of 
our Chairman Cathryn Buford Slater for the opportunity to 
convey the Council's strong support for reauthorization of 
deposits in the Historic Preservation Fund. Ms. Slater serves 
as the Arkansas State Historic Preservation Officer. She was 
not able to be here today, but her statement has been included 
for the record.
    [The statement of Ms. Slater may be found at end of 
hearing.]
    Mr. Fowler. The Council, as you know, is an independent 
Federal agency charged by the National Historic Preservation 
Act of 1966 with advising the President and Congress on matters 
of historic preservation, and coordinating the activities of 
Federal agencies as they relate to historic properties and 
historic preservation issues. We do this under a number of 
authorities under the Historic Preservation Act, but most 
important of these is section 106 that requires Federal 
agencies to take into account the effects of their undertakings 
on historic properties and then afford the Council a reasonable 
opportunity to comment.
    In the section 106 process that has been developed by the 
Council over the past three decades, we rely very heavily upon 
the SHPOs, State Historic Preservation Officers, to consult 
with and assist Federal agencies in meeting their legal 
obligations. In amendments we are now proposing to the section 
106 regulations, we will bring tribal Historic Preservation 
Officers, authorized by the 1992 amendments to the Historic 
Preservation Act, into the partnership, in a similar way to 
State Historic Preservation Officers, to work with Federal 
agencies.
    You can see from this that SHPOs and tribal Historic 
Preservation Officers are really essential to the section 106 
process. Without them, serious burdens would be placed on 
Federal agencies and all of those who seek assistance from 
Federal agencies or permits required by Federal law. 
Continuation of Federal support for State and tribal historic 
preservation programs is essential. This comes from the annual 
appropriation that is authorized under the Historic 
Preservation Fund. Accordingly, the Council strongly supports 
reauthorization of deposits into the Historic Preservation Fund 
through the year 2002, and hopefully beyond.
    But the importance of the Historic Preservation Fund 
supports for SHPO and THPO programs is such that we are 
concerned that some of the amendments in H.R. 1522 may cause 
controversy or delay in getting the essential authorization 
through. I think you have heard that and will hear that from 
witnesses this morning. Therefore, the action that the Council 
has taken is to support a simple reauthorization of the 
Historic Preservation Fund.
    At the same time, we would hope that the Committee would 
take this opportunity to deal with some technical amendments of 
a minor nature that would help us, the Council, better do our 
job as a partner in the Historic Preservation Program. Since 
1995, we have gone through an almost 20 percent downsizing in 
our operations, and there are provisions in the law that, if we 
could adjust them, would make it easier for us to deal with our 
constrained circumstances and carry out our fundamental 
mission. An example of this would be to put our 
reauthorization, which was recently done by this Committee 
through the year 2000, on the same cycle as the HFP. We would 
not have to put the resources out that we do as a small agency 
to get a bill through quite as soon as we would otherwise have 
to do it, and I think we could save time for the Committee by 
putting these two authorizations together.
    We have some provisions and obligations in our laws, such 
as the requirement to submit an annual report to the Congress, 
that requires a commitment of staff resources. While it is a 
very useful report and a very useful exercise, with the 
evolution of technology for information dissemination and so 
on, it may be something that has outlived its usefulness. We 
would prefer to have the discretion to go forward with an 
annual report as needed.
    We would like to deal with our employees, who over the 
years have been hired under our excepted authority. We now have 
long-term Council employees that do not have the full benefit 
of career status under the General Schedule. Instead of going 
through individual conversions, we would like to work with the 
Committee to do a conversion of our staff to full GS status.
    H.R. 1522 conveys some very useful and interesting ideas in 
it, but as our preservation partners will note today, in some 
cases the needs they seek to address have changed, such as the 
concern about the Interior Department issuing section 110 
guidelines. We are pleased to say we worked closely with the 
Department, and these guidelines are near final issuance.
    Other ideas, such as reinforcing the Council's dispute 
resolution authority, are certainly interesting, but as Mr. 
Stanton noted, need to be done in a manner consistent with the 
authorities of the Council and the relationships of the 
partners.
    In closing, I would just like to note the Historic 
Preservation Act has evolved over 30 years. It is an excellent 
law. It can certainly be made better. We would like to work 
with the Committee to do this, but we are really concerned at 
the moment about getting the Historic Preservation Fund 
reauthorized. Thank you very much.
    Mr. Hansen. Thank you.
    I will now recognize the members of the Committee for 5 
minutes each to question the panel.
    The gentleman from America Samoa, the Ranking Member of the 
Subcommittee.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Just a couple of 
questions to the members of the panel, if you could share with 
us, gentlemen and Ms. Stevenson, your sense of experience, if 
there has been in the past a backlog or a sense of disinterest 
or noncommitment on the part of the Secretary of the Interior--
not this one, but even, you know, for the past several years--
concerning historic preservation. Have there been any problems 
with the current law affecting the responsibilities given to 
the Secretary of the Interior, because I sense there is 
disagreement from all three of you gentlemen concerning the 
proposed bill. And I respect my good friend from Colorado; I 
was thinking perhaps this whole matter of historic preservation 
should be given to the States to run, rather than giving it to 
``Big Brother'' here and have him be the final arbitrator.
    Can you comment on that?
    Mr. Stanton. Thank you. Mr. Faleomavaega, with respect to 
the backlog, obviously, as we consider the large number of 
existing as well as potential properties that could be added to 
national register historic places, there is a great deal of 
work that needs to be done at local, State and Federal levels. 
Clearly, in terms of our relationship with the national council 
of historic preservation, other Federal agencies, such as the 
General Services Administration and certainly working with the 
States and the trust territories, we are addressing the 
backlog.
    There is a question of financial resources that are 
available to meet those needs, and what we have attempted to do 
is to come up with some alternative approaches with respect to 
the private sector, as well as services from public agencies 
towards the preservation effort. But we believe that the 
framework, as embodied in the Historic Preservation Act and the 
Historic Preservation Fund, allows us to maximize the services 
and resources available at all levels of the government. But 
the extent to which we would be able to diminish the backlog 
within the next decade is difficult to speculate on at this 
time.
    Mr. Faleomavaega. Mr. Peck and Mr. Fowler?
    Mr. Peck. Thank you. It is probably more for the Interior 
Department and Advisory Council to comment on this process. I 
will just note that the historic preservation program, as it 
runs now, is a partnership. We get involved mostly when there 
are projects affecting our historic buildings or where we are 
looking at historic buildings in privately owned hands for 
possible use by the government. We find it is a very effective 
partnership at the moment between the Federal Government and 
the States, which have a very large role to play.
    State historic preservation officers, in more instances 
than not, if you looked at the project objectively, call the 
shots. We have to rely on their resources to identify 
properties, give us most of the hard advice on what features of 
a building need to be preserved and where national historic 
landmark nominations are made. They obviously have a very 
strong role in making recommendations on these recommendations 
to the Federal Government.
    Mr. Faleomavaega. Mr. Fowler?
    Mr. Fowler. I would like to emphasize what Mr. Peck said 
about the notion of a partnership. We work very closely, not 
just with the Interior Department and the National Park Service 
on carrying out the historic preservation program, but really 
closely with the States and, most recently, with tribes; and I 
think that really is a hallmark of this program, and it is 
something that the Congress, in its wisdom, has strengthened 
periodically. And I think that is the reason we are all here 
today, to support the continuation of the Historic Preservation 
Fund.
    H.R. 1522 proposes some readjustments in the Federal 
dimension of that partnership, and I think that I should note 
for the record that our council membership, which includes the 
Secretary of the Interior and the Administrator of GSA, has not 
taken a formal position on these specific amendments. I would 
note from my experience in dealing with the Interior 
Department, we work very closely on implementing section 110; 
we have jointly drafted, for example, the section 110 
guidelines that are referred to in the legislation, and we are 
pleased to see this come to fruition. What needs to be 
emphasized, we think, is the notion of consultation regardless 
of who has the responsibility under the law to ensure that this 
partnership continues the way it has.
    Mr. Faleomavaega. So your best opinion is that the 
partnership is working very well, despite the backlog, the 
problems that you have, as it is, with limited resources?
    My time is up, I guess, Mr. Chairman. Thank you.
    Mr. Hansen. The gentleman from Colorado.
    Mr. Hefley. Thank you very much. I appreciate very much the 
input that each of you had, and I have great respect for your 
input and I will certainly take your suggestions into 
consideration; and any additional suggestions you might have 
between now and the time we get to the markup phase of this 
bill, we would appreciate having those.
    It seemed to me, in listening to your testimony, the major 
stickler, although there are a number of suggestions, is the 
role of the Advisory Council, and the reason for the changes we 
suggested in the bill is to strengthen the Advisory Council's 
hand as an arbitrator, simply because they don't have a dog in 
the fight. In a way, the park department does, the Department 
of Interior does and so forth, GAO does, but they don't; and 
they have proved, even under the present circumstances, at 
times, they can be an amazingly powerful arbitrator; and we 
thought that might be necessary. And I give one example in 
Victor, a mining district in my district, where they were 
opening up an old mine area and they found an Indian circle or 
something, and we had every agency known to man descending on 
the place; and several million dollars later the mine went on 
and began to operate. The Cheyenne Arapahoe tribe blessed it 
and all this kind of thing, we got through the whole thing. But 
it seemed to me we went through an enormous amount of rigmarole 
we wouldn't have had to do if we had had a powerful arbitrator 
who said, this makes a difference and that doesn't and so 
forth. But maybe that isn't the way to go. I'm not sure.
    Would you, Mr. Stanton, describe the National Park 
Service's relationship with the Advisory Council as you see it, 
and then I would like Mr. Fowler to kind of talk from his 
standpoint as well.
    Mr. Stanton. With respect to our relationship, I think it 
is excellent, but as in all relationships, there are 
opportunities to enhance, there are always some questions of 
adequacy of communication and coordination. But in terms of a 
major undertaking on the part of the National Park Service with 
respect to properties under our direct jurisdiction, as well as 
our consultation with State historic preservation officers and 
others with respect to properties in private ownership or in 
ownership of States or their political subdivisions, the 
relationship with the Advisory Council, I think, has been 
excellent.
    What we attempt to do is to seek their advice with respect 
to maybe general management plans or the undertaking of the 
restoration of the Washington Monument as an example, and 
certainly with the siting of the new memorials here in the 
Nation's Capital.
    The question has come up as to how effective have we been 
in analyzing what the requirements of a preservation project 
may be, and I might just add, Mr. Hefley, with respect to our 
own in-house capability, we try to assure that our projects are 
reviewed by historical architects, archeologists and 
historians, so the historic integrity of an undertaking is 
fully analyzed by my people before we even submit a proposal to 
the National Advisory Council, so it is a good relationship, it 
is a good give-and-take.
    Mr. Hefley. Well, I know that your policy--in the case of 
the Victor example I gave, it was one person, I think, within 
the park department, who created the enormous difficulty that 
was created there; and it was just because of their own 
personal bias out there in the field, and this was not under 
your reign.
    So Mr. Fowler----
    Mr. Fowler. I certainly echo the Director's 
characterization of the relationship. We deal with the Park 
Service in two somewhat distinct ways. One is, as a partner in 
carrying out the historic preservation program, the Department, 
acting through the National Park Service, has certain 
responsibilities relating to the status preservation programs, 
tribal programs, professional standards, et cetera. Likewise, 
the council has responsibilities when it comes to administering 
the project review process, and I think again the example of 
the cooperation that we both exhibited in developing the 
section 110 guidelines is exemplary of that partnership.
    We also deal with the Park Service the way we deal with any 
other Federal agency that has actions that affect historic 
properties, and sometimes--we are not always in agreement as to 
what the outcome should be, but we deal with each other 
professionally.
    You made some reference to the dispute resolution 
provision, and that, as you noted earlier, was a point of 
contention. We do attempt, through the section 106 process, to 
resolve disputes or prevent disputes from emerging by having 
good, early planning and early consideration of historic 
properties. We are currently charged by this Committee to come 
back with a report to you next spring on other ways, alternate 
ways we can implement the section 106 requirements; and I think 
the development of this report might provide a good opportunity 
to examine whether some additional authority, consistent with 
the council's basic legal authorities might be suitable to have 
to assist us in carrying--in doing a better job in dispute 
resolution or dispute prevention.
    Mr. Hefley. My time is up. Let me ask one quick question.
    Would you agree with Mr. Stanton, Mr. Fowler, that now is 
not the time to make the changes that are suggested in terms of 
your role?
    Mr. Fowler. I think they need to be made in--I hate to say 
now is not the time to consider them because the time to 
consider them is when you are looking at this Act and there may 
be some positive things that can be done.
    I think it needs to be very carefully done, and it should 
not--as I noted in my opening statement, it should not be done 
to the delay of getting the primary reauthorization through.
    Mr. Hefley. Thank you very much.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Director Stanton, maybe you can help me understand this a 
little bit better than in your testimony I have here before me. 
You indicated that changing the Advisory Council's authority 
has the potential to interfere with the primary mission of the 
Federal agencies, and according to a Department of Justice 
statement, would violate the appointment clause of the 
Constitution.
    Can you explain that to me so that I can understand what 
you are getting at?
    Mr. Stanton. I would only attempt to explain it in a 
layman's way, sir. I appreciate the question.
    Again, based on advice from the Justice Department, is that 
the statute establishing the Advisory Council clearly gives 
authority to be advisory to the executive departments that have 
the ultimate re-

sponsibility of carrying out programs, activities affecting its 
responsibilities. Clearly, the Secretary of the Interior, 
clearly the Director of the National Park Service, as an 
example, have responsibilities of managing resources, and the 
final decision would rest with us in terms of the delegated 
authorities.
    If I understand correctly the counsel from the Justice 
Department, it would, in essence, remove that kind of a line 
authority from the Department of the Interior, vested in the 
Secretary of the Interior and bureaus responsible to him; and 
therefore, a decision--ultimate decision affecting properties 
under our jurisdiction would reside then with the Advisory 
Council on Historic Preservation.
    Mr. Gibbons. Are you saying this jurisdiction is removed 
over existing property that is listed in the national historic 
records or over proposed property that would be listed, because 
we are talking about an advisory decision or a council here?
    Mr. Stanton. If I understand the question correctly, it 
would remove, in some circumstances, the responsibility and 
indeed the authority from the Department of Interior to make 
the final decision on existing, as well as potential, 
properties that would be affected.
    Mr. Gibbons. Amendment 2, that you also disagree with here, 
deletes the Department of Interior's decision or authority to 
override property owners' consent, if you will, to having their 
property listed. That is what I believe you are stating in a 
paragraph on page 3, second paragraph, of your testimony, is 
that not correct, your interpretation that says that Amendment 
2 deletes the Secretary of the Interior's ability to override 
objections of private property owners?
    Mr. Stanton. The view that has been expressed in the 
testimony, as you describe, sir, is that we believe that the 
spirit of the historic preservation program for the Federal 
Government, vested in the Department of Interior and certainly 
with the advice of the national council of historic 
preservation should not preclude the Nation identifying its 
cultural resources or historic resources, irrespective of 
ownership. Obviously, the ultimate treatment of those resources 
will still be vested in the owner of that property, but to 
identify it as having historical significance to our Nation or 
to a State still should be in the public interest; but 
therefore, it does not, by listing these properties on a 
national register, remove any of the rights that run to the 
ownership of those properties.
    Mr. Gibbons. Help me out. Once a property is listed on a 
register, is it restricted in any form to the private owner's 
ability of development changes, that that owner may have or may 
wish to take with regard to the improvement or changes of that 
property?
    Mr. Stanton. Actually, it does not, unless there is Federal 
money involved, or funding involved, but it does not in any way 
diminish the property owners' rights to exercise their 
treatment, development, rehabilitation, or removal of the 
property, as they see fit.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. How does the cost compare between a remodeling, 
retrofitting and new construction? How does the cost compare 
when you put bids out, you talk to builders?
    Mr. Peck. Mr. Chairman, since we do that, I can respond; 
and as always, it depends. It depends on the level of 
restoration work you are doing in a building. And, in fact, we 
have a number of cases going now in which there are arguments 
on all sides about whether in one particular instance it is 
more expensive to rehab an existing building we do not 
currently own, or to build a brand new court house.
    Here are the kinds of factors that come into play. The 
question is, in an existing building, will the floor-to-ceiling 
heights in the building take the heights we require in 
courtrooms, because we have a standard given to us by the 
courts that requires that the ceiling height be a certain 
level. Therefore, we might have to do some structural things to 
the old building.
    On the other hand, as a general rule, you save a lot of 
money when you don't have to build a new foundation, put up 
structural steel or concrete framework; and you wind up--
interestingly, in rehab projects, you wind up spending more of 
your money on labor and less on materials than you do on a new 
construction project.
    But I can show you numbers that go both ways on what is 
more expensive. It depends on the quality of the new building 
you are talking about, too. But I would say, flush all that out 
and you wind up saying it is often a wash.
    Mr. Hansen. I guess that is kind of a retail question, 
isn't it, predicated on the building you are looking at, 
basically, what have you got? But if you look at some of these 
old buildings, you say, where could we find anybody who could 
figure out how to do that?
    I know, as an old land developer, you look at some of the 
things and you say, that was wonderful, some real craftsman, 
some very skilled person did this particular thing; how can we 
find somebody in this day and age? But apparently somebody 
always seems to surface if we have enough money to pay them to 
do it.
    Mr. Peck. Mr. Chairman, interestingly, since I got involved 
in preservation some 25 years ago, there are a lot more 
ornamental plasterers than there used to be because there is 
now a demand for them. More people now work in metal and wood 
to restore old buildings than at one time. When we rehabbed 
Union Station, we were pretty sure we had just about every 
ornamental plasterer on the East Coast working on the project. 
I think there are a lot more than that now.
    Mr. Hansen. I was just curious how that worked out. As I 
look at old buildings, especially religious buildings and 
historic buildings, I have just been amazed that people can 
restore them.
    Any more questions for this panel?
    Mr. Faleomavaega. Mr. Chairman. I would like to ask Mr. 
Fowler, it has been my experience in working with the Majority, 
that once the train starts moving, you are either on board, or 
you are not going to catch up with them.
    And I just wanted to ask, Mr. Fowler, you indicated there 
is some report you are going to be preparing--submitting 
sometime in the spring. Is there some way we can expedite that, 
because I think central to this proposed bill is exactly the 
situation with the Council on Historic Preservation and your 
activities--what it takes to have the historic preservation. 
You mentioned earlier in your testimony that you were preparing 
some kind of report, and I would like to ask if you can 
expedite that report and submit it to the Subcommittee sooner. 
Perhaps it will be helpful to the Subcommittee as we prepare 
for the markup.
    Mr. Fowler. In all honesty, sir, when we were directed to 
provide that report, we were given no resources, no additional 
resources to do it. We programmed it so we can deliver it in 
May, and I am not sure that we are going to be able to move 
that schedule up. But we would certainly be happy to share with 
the Committee what we are finding in the development of that 
report, if that is necessary, in order to meet your time 
schedule.
    Mr. Faleomavaega. Certainly I think it will be helpful to 
know exactly where you stand.
    Mr. Hefley. If the gentleman will yield, I agree it would 
be helpful.
    I also agree with panel members, I would hesitate to do 
anything that would slow this up. I think we need to go ahead 
with the reauthorization here; and maybe if you come in with a 
report that says some things that do mean additional changes, 
Mr. Chairman, we could take that up in the Committee with a 
separate bill and work on that next year. But I would hate to 
wait until next year to move forward with this.
    Mr. Fowler. I believe that is the way we were looking at 
the report, that hopefully it would be the beginning of a 
discussion about further ways to improve the National Historic 
Preservation Act.
    Mr. Stanton. We certainly concur in that approach.
    Mr. Fowler. I should note, we are currently finalizing 
changes to our section 106 regulations to implement the 1992 
amendments. We started that process in 1993. It usually takes--
because of public comment and discussion among agencies and 
stakeholders and so on, it takes anywhere from 4 to 5 years to 
finalize major regulatory changes, so anything that we are 
looking at in substantial changes, in implementation of the 106 
process, we are looking at the next round of legislative 
oversight discussion and regulatory implementation.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    We want to thank the panel for their presentation.
    And our next panel will be Mr. Eric Hertfelder, Executive 
Director of the National Conference of State Historic 
Preservation Officers; Alexander Wise, Virginia Department of 
Historical Resources; John Keck, Wyoming State Historic 
Preservation Office; and Ms. Brenda Barrett, Director of 
Historic Preservation of the Commonwealth of Pennsylvania.
    If they would please come forward, everybody in the right 
place. You all heard the suggestion of staying in your time, if 
you could. If you want to go over a little bit, we understand.
    I ask unanimous consent that the letter addressed to me on 
October 15, 1997, from the Architect of the Capital be included 
in the record. Is there objection?
    Hearing none, so ordered.
    [The information may be found at end of hearing.]

  STATEMENT OF ERIC HERTFELDER, EXECUTIVE DIRECTOR, NATIONAL 
       CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS

    Mr. Hansen. We will start with you, Mr. Hertfelder.
    Mr. Hertfelder. Mr. Chairman and members of the Committee, 
thank you for having this panel today of SHPOs, the State 
Historic Preservation Officers.
    The National Historic Preservation Act is the organic Act 
which defines governmental roles in historic preservation and 
creates the intergovernmental partnership, the Federal 
Government cooperating with State, local and tribal 
governments, which actually carry out the Federal Government's 
historic preservation program. The Historic Preservation Fund 
funding is absolutely critical to maintaining this partnership, 
and we are very grateful to Mr. Hefley for introducing 
legislation to continue the deposits to the fund.
    At this point I am going to turn to the three officers who 
are here. First, Alexander Wise, who is the State Historic 
Preservation director in Virginia, appointed in 1994, and he is 
the director of the Division of Historic Resources in Virginia; 
and then John Peck, State Historic Preservation Officer 
appointed in 1992, of the SHPO office in Wyoming, which is 
located in the Department of Commerce; and then Brenda Barrett, 
Deputy State Historic Preservation Officer from Pennsylvania, 
appointed in 1980, who is director of the Bureau of Historic 
Preservation, a part of the Independent Pennsylvania Historical 
and Museums Commission.
    So I will turn it over to Alex Wise.

      STATEMENT OF H. ALEXANDER WISE, JR., STATE HISTORIC 
   PRESERVATION OFFICER AND DIRECTOR, VIRGINIA DEPARTMENT OF 
                      HISTORICAL RESOURCES

    Mr. Wise. Mr. Chairman, distinguished Subcommittee Members, 
I am here today as Virginia's State Historic Preservation 
Officer to urge you to reauthorize deposits into the Historic 
Preservation Fund through year 2007.
    Virginia is a State rich in history, but it is one thing to 
have history; it is another to put it to work for the benefit 
of our citizens, our communities, and our country. So much of 
our history has to do with the perceived liberty and shaping of 
our Nation in Virginia that, in a sense, we hold our history in 
trust for all Americans. The National Historic Preservation 
Fund plays a vital role in the development of this priceless 
asset for all of us.
    Each year we receive approximately $650,000 from the 
Historic Preservation Fund, a modest amount, but let me tell 
you what it does. It funds our National Register Program 
through which significant buildings, archeological sites, 
structures and districts are identified, documented and 
publicly recognized with the consent of property owners. These 
places and their settings give our communities their identity 
and our Commonwealth its character. Communities, like 
individuals, need identity and roots. Without a sense of past, 
there can be no sense of future.
    In the past 30 years, nearly 2,000 individual Virginia 
properties and districts have been placed on the Register. Let 
me mention just one example. Aberdeen Gardens in the city of 
Hampton was a 1930s resettlement administration project 
designed and built by and for African Americans. Former 
Secretary of Energy Hazel O'Leary grew up there. By the early 
1990s, it was becoming run-down, but an extraordinary woman 
named Evelyn Chandler undertook registration of Aberdeen 
Gardens as a community project to build pride and begin the 
revitalization process. Working closely with my office, she 
succeeded in having Aberdeen's 160 buildings registered as an 
historic district, with the full support of the property 
owners. The community has leveraged its newfound pride and 
cohesion into political strength, better schools, higher 
property values, greater prosperity, and plans for a community 
museum to attract tourists.
    The Federal historic rehabilitation tax credit, 
administration of which is also funded through the Historic 
Preservation Fund, converts listing on the National Register 
directly into an economic benefit for property owners and for 
their communities. In the past 20 years, the rehabilitation of 
some 674 income-producing historic buildings across Virginia 
has resulted in an investment of $259 million in historic 
buildings and districts. As a result, an estimated 13,000 new 
jobs have been created with an increase of household income of 
nearly $275 million. Half of these have been in the 
construction industry and half in the professions, lawyers and 
architects and so forth. Last year alone, over $40 million was 
invested in completed rehab projects in Virginia under this 
program.
    Adaptive reuse of old buildings through the Federal tax 
credit helps preserve the character of our communities, 
enhances their tax bases, brings blighted areas back to life, 
uses existing infrastructure, is environmentally responsible, 
and reduces urban sprawl. In Roanoke, for example, the $28 
million restoration of the Hotel Roanoke, a joint project of 
the city government, a university, a redevelopment authority, a 
bank consortium, and tens of thousands of citizens, 
demonstrated all of these advantages and has had a major impact 
on the city's downtown.
    Mr. Chairman, the Historic Preservation Fund is first and 
foremost about helping communities maintain their historic 
fabric. The Certified Local Government Program in Virginia 
includes 23 communities which have made a special effort in 
historic preservation. One great example is Clarke County, 
which has used every possible means of advancing historic 
preservation, including doing a video for economic development 
and education, using the historic fabric as a way to attract 
businesses.
    The fourth major program that the Fund funds is project 
review, section 106. Dulles Airport and National Airport are 
great examples of how citizens have been brought in to the 
review process to make projects better and to ensure 
historically sensitive rehabilitations that are also 
functional.
    If I can, in closing, just say that the Fund also leverages 
many very positive State programs. Governor Allen and his 
Secretary of Natural Resources Becky Norton Dunlop, have 
provided a great deal of leadership in helping us leverage 
these Federal dollars into State projects as well that make the 
Federal dollars go very, very far indeed.
    Finally, let me say that in my 3\1/2\ years, I have seen a 
tremendous improvement in the partnership between the States 
and the National Park Service, and it is a genuine State-
Federal partner-

ship. It is a program where federalism is alive and well, and 
we are also very enthusiastic about the new section 106 
regulations and think that our relationship with the Advisory 
Council is where we want it. We think this program is working 
well and that the emphasis should be on reauthorization. Thank 
you very much.
    [The prepared statement of Mr. Wise may be found at end of 
hearing.]

STATEMENT OF JOHN T. KECK, STATE HISTORIC PRESERVATION OFFICER, 
           WYOMING STATE HISTORIC PRESERVATION OFFICE

    Mr. Keck. Mr. Chairman, thank you very much for the 
opportunity to come and speak to this panel this morning. I, 
too, am here to ask for your reauthorization of the Historic 
Preservation Fund and speak on its behalf.
    I do not come to the historic preservation field as a 
trained academician, but the one thing that did become clear to 
me upon assuming the State Historic Preservation Office in 
Wyoming is the vast impact this program can have on the State 
and its citizens, and it is a vast, positive impact. What makes 
that happen is the grass-roots nature of this whole bill and 
the way it provides people, that is just your average citizen, 
with the opportunity to have a voice in how their resources are 
managed. The law States the parameters by which people can 
speak on behalf of things that they feel are important to them, 
because of their local significance, their State significance, 
their national significance. Absent that ability, there would 
be some very devastating effects on the resources. Within 
Wyoming, and I think in the majority of the Western States, it 
has really enabled us to develop numerous partnerships in a 
variety of areas to help with State development.
    One example is heritage tourism. We have some wonderful 
relationships with Grand Teton National Park and Fort Laramie 
that are being tied into local tourism packages. We have 
excellent relationships with the Bureau of Land Management on 
Project Archeology that is being used to develop sites and 
information that is being used through the State Division of 
Tourism to attract people to those types of resources.
    The Tax Act is a program that in Wyoming works integrally 
with the Department of Commerce. We, as a State Historic 
Preservation Office, are housed in the same building, and we 
work hand in glove with them on many issues of interest to our 
local citizenry on how we can maintain a sense of character in 
Wyoming while still providing for needed economic growth and 
development.
    How do we maintain a life-style while confronted with vast 
changes that we know are coming in the future? The Historic 
Preservation Fund and the legislation provides a mechanism for 
doing that through the development of partnerships and by 
enabling the grass-roots support to be there so that the 
communities and the local citizens have a chance to speak and 
act on behalf of these resources.
    One of the major perceptions that causes problems within 
the National Historic Preservation Act is the 106 program, and 
within that, most of the problems you will find are really one 
of perception rather than reality. When we come down to it, the 
Act itself is not causing the problems, the Act is enabling 
that the resources be considered. It is the basic tensions that 
are created by a single-purpose agency, which the State 
Historic Preservation Office is, and in the West we have 
multipurpose agencies, such as the Bureau of Land Management 
and the U.S. Forest Service. The problems we have are issues 
that the Act was created to create, in that there are 
differences of opinions, and you have to accept that those 
differences are going to occur, but it does not, when it is 
handled responsibly, preclude those Federal agencies from 
making land management decisions. What it does is affords the 
public a chance to be involved and a responsible partner in the 
development of those resources.
    When I talk about the potential for partnerships, one thing 
that we are doing, and I wanted to site this as an example to 
the Subcommittee, is we are working on an interstate 
partnership relationship with many of the Western States, 
California, New Mexico, Arizona and Colorado, to name a few, 
and also Massachusetts, for the development of a national 
database. The Park Service has one in effect now. They have 
done an excellent job with it, and they are also coming on 
board as a partner with us, too.
    What we are looking at is with the vast amount of 
information that exists on these resources, how can we make it 
cross jurisdictional boundaries; how can we make it so it is 
more accessible to the public, so that if a citizen wants to 
know about their resources, they can do so easily and at a low-
cost basis? How can we do it in such a fashion that permitted 
actions under section 106 can be handled in a more efficient 
manner?
    These are the forces that are driving it, and all of these 
factors are available through the authorization of the Historic 
Preservation Fund. I see it as an opportunity that does not 
preclude, but enhances, the opportunities for those 
developments to occur, and for those developments to occur in a 
responsible fashion that meets the needs identified by that 
State who, in partnership with the Federal agencies and the 
local citizens, can effectuate and manage these resources in an 
appropriate and responsible fashion.
    [The prepared statement of Mr. Keck may be found at end of 
hearing.]

 STATEMENT OF BRENDA BARRETT, DIRECTOR, PENNSYLVANIA BUREAU OF 
                     HISTORIC PRESERVATION

    Ms. Barrett. Mr. Chairman, on behalf of Governor Ridge of 
Pennsylvania, I want to thank the Chairman and members of the 
Committee for inviting me here today. I am Brenda Barrett, 
Director of the Historic Preservation Program.
    Over 30 years ago, Congress passed what was then a unique 
partnership bill in the National Historic Preservation Act, and 
each of these partners brought special skills. The National 
Park Service has, of course, the national perspective and a 
long-standing expertise in historic preservation. The Advisory 
Council on Historic Preservation brings together an array of 
Federal land managing agencies and some of our key citizen 
partners, and, of course, the States deliver the program on the 
ground in the communities. As one of the stateside partners, I 
am here to attest to the success of this program and to urge 
its reauthorization.
    In the Commonwealth of Pennsylvania, this success is 
demonstrated both by the numbers of historic properties 
preserved for new uses and by the less tangible value of a 
heritage that is saved for the next generation. But first, let 
us look at some of these numbers. We have over 3,000 properties 
listed in the National Register, and interest in the program is 
still growing. Our survey files of historic buildings and 
archeological sites contain over 150,000 records, and armed 
with this rich historic database, communities are initiating 
hundreds of mainstream programs in Pennsylvania. They have 
established over 80 local historic districts, and they are 
using it in tourist promotion. Housing, hotel and other 
commercial developers are taking advantage of the investment 
tax credit for historic preservation, and at the commission we 
are proud to report over $1.7 billion in rehabilitation 
investment in Pennsylvania, where we are the national leaders.
    Thanks to the farsighted funding formula and the framework 
of the National Historic Preservation Act, historic 
preservation programs have been woven into the fabric of every 
State. Now, these programs have the advantage of both being 
comparable State to State and tailored to the needs of each 
State's governance. My Governor, Tom Ridge, has supported 
generously our history programs. We have a bricks and mortar 
State grant program that assists hundreds of National Register 
buildings. We have a treasure trove of historic site 
information that supports, for example, our innovative heritage 
park program that is based on our industrial heritage in 
Pennsylvania. And I have actually brought several copies of our 
most recent publication. This is on the coal industry in 
Pennsylvania, and this history research is used as a baseline, 
as a context for National Register nominations, for heritage 
planning, for interpretation, for trails of history, for 
driving tours, and for historic site development.
    But, while the Commonwealth programs are strong and 
diverse, Pennsylvania needs the funding, and we need the 
Federal support of a reauthorized National Historic 
Preservation Act. It is critical so that we can assist Federal 
agencies in fulfilling their mandates when they plan and 
develop projects in our borders; it is critical to providing a 
consistent baseline for history initiatives; and most 
importantly, to connect us to the larger story of our Nation. 
Thank you very much.
    Mr. Hefley. [presiding] Thank you.
    [The prepared statement of Ms. Barrett may be found at end 
of hearing.]
    Mr. Hefley. Questions?
    Mr. Faleomavaega. One quick question, Mr. Chairman, I would 
like to ask Mr. Wise.
    I notice in your statement that you are recommending that 
the Secretary's authority be terminated, or rescinded, in terms 
of the transfer of property. Can you elaborate a little further 
on that, Mr. Wise?
    Mr. Wise. Which section are you referring to?
    Mr. Faleomavaega. You are recommending in your conclusions 
that the secretarial authority be rescinded on the transfer of 
property. I think you have that number 4 in your 
recommendation. I wasn't quite clear on that.
    Mr. Wise. I am going to ask Mr. Hertfelder to speak on 
that, if I may.
    Mr. Faleomavaega. Oh, sure, by all means.
    Now, is there a suggestion that under the current law, the 
Secretary's authority is not used wisely, or is there some 
problems that we are having with the Secretary of the Interior 
doing his job according to the law?
    Mr. Hertfelder. I think we have found that it is generally 
not used, because in a sense it is duplicated by the section 
106 procedures. Whenever the accessing of a Federal building, 
the transfer of Federal properties is, in fact, an undertaking 
under the law, and therefore it is subject to Advisory Council 
review. The Secretary of the Interior is a statutory member of 
the Council, and so that review takes place under 106. It was 
our feeling that to have another whole separate review process 
would be duplicative, and, in fact, it has not been 
implemented.
    Mr. Faleomavaega. And if not by the Secretary, then how are 
you suggesting, that the Council make the final decision for 
the State Council of Historic Preservation?
    Mr. Hertfelder. I believe our suggestion is that since 
existing law creates a review which is duplicated by 106, that 
deleting it would have no effect, because----
    Mr. Faleomavaega. But what is your preference?
    Mr. Hertfelder. Our preference is to have it under section 
106, because there is wider public and agency involvement in 
that review than just having one Cabinet officer do a review of 
all Federal property transfer.
    Mr. Faleomavaega. The officer being the? Which is the 
reviewing body that you are suggesting being the final arbiter 
of the transfer of property? You are saying that we eliminate 
the Secretary's authority. Who are you suggesting that we ought 
to give this authority to then?
    Mr. Hertfelder. Well, we are not suggesting transferring 
the existing authority anywhere else. Our suggestion is that 
this can be deleted, because the Advisory Council, in section 
106 review, duplicates that process.
    Mr. Faleomavaega. Your feelings are the Advisory Council 
should be the one doing it?
    Mr. Hertfelder. Yes.
    Mr. Faleomavaega. Okay. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Gibbons.
    Mr. Gibbons. Mr. Hertfelder, could you describe the process 
for me by which properties are nominated to the National 
Register of Historic Places, and also, is there a difference 
for landmark status and historic district status?
    Mr. Hertfelder. Right. Each of the States can further 
describe the details, but in general, the State Historic 
Preservation Officers receive suggestions for properties which 
should be nominated to the National Register from communities, 
from individuals, individual homeowners, from businesses who 
want to take advantage of the Federal tax credits and so forth. 
There are procedures involved, standards to be met in terms of 
documentation, so if someone wants to proceed with a 
nomination, they prepare a nomination according to the National 
Register, National Park Service's stand-

ards. Then that nomination is submitted to the State Historic 
Preservation Office, or, if a local government has assumed 
responsibility under the Act, to the local government, or to a 
tribal government if they have assumed responsibility under the 
Act. But anyway, the State Historic Preservation Office then 
reviews the nomination.
    Before any action is taken to decide whether it is eligible 
or not, the property owners in the affected area are notified 
if it is a district, or an individual owner if it is an 
individual, and given an opportunity to object. Then the State 
Historic Preservation Review Board--I am sorry, the State 
National Register Review Board, which consists of various 
professionals appointed and qualified to comment on various 
aspects of history and archeology, review the nomination and 
decide whether it meets the National Register criteria. If it 
does, then it is forwarded through the National Park Service, 
and then the Park Service has to review it again to decide 
whether or not it is eligible for the Register.
    In the case of owner notifications, if an individual owner 
objects to the nomination, the nomination--it may not be 
entered on the National Register. In terms of districts, if a 
majority of the owners object, it may not be entered on the 
National Register.
    Mr. Gibbons. I guess for each of the States here that are 
represented, does that mesh with your own State procedures?
    Mr. Wise. Yes, it does, and we have a policy in Virginia; 
we do not ram things down property owners' throats, and we very 
much--are very concerned about what property owners want to do, 
and we track exactly what he is saying.
    Mr. Gibbons. So a private property owner would be given an 
opportunity to opt out of the system without any further 
incidents if he were just a single property owner within that 
group, or a historic place rather than a historic district?
    Mr. Wise. Correct.
    Mr. Gibbons. Because if he is only a minority in a historic 
direct, then it is the district that has the choice of 
selection and not a single property owner; is that correct?
    Mr. Wise. If a single property owner objects, that is the 
end of it, as far as we are concerned.
    Mr. Gibbons. Would that take place in a district?
    Mr. Wise. No, in a district, it is majority rules.
    Mr. Gibbons. If it is a single property owner, if he 
objects, he is off the list, no further recourse, no further 
action.
    Mr. Wise. Well, I believe it came up earlier, Mr. Stanton 
was asked the question of whether the Secretary can still say 
that something is eligible, and yes. I think there was some 
confusion there because the Secretary could say that a property 
is eligible, but he could not place it on the Register.
    Mr. Gibbons. Okay.
    Mr. Wise. And the eligibility determination is just an 
objective. It is a statement that this doesn't meet the 
criteria for nomination, but that is different from actually 
putting it on the Register.
    Mr. Gibbons. Now, let me find out, if the originating 
recommendation does not come from the property owner, how is a 
property owner notified?
    Mr. Wise. Well, in Virginia we take care of that by working 
with the property owner up front.
    Mr. Gibbons. How is that? How do you do that? What is the 
process?
    Mr. Wise. Well, we have field offices in Virginia, and if 
somebody came to us who was a third party and said, we want to 
put something on the Register, and then we would immediately go 
to the property owner and say, is this of interest to you? Do 
you want to do this? And if the property owner said no, well, 
we would not proceed.
    Mr. Gibbons. Maybe I should allow the other States, Wyoming 
and Pennsylvania, to add to this as well.
    Mr. Keck. We do it much the same. If I can give you a 
couple of specific instances that may help clarify the 
situation, recently in the community of Cheyenne, there was a 
Lakeview Historic District created, which was a residential 
area encompassing about 50-odd houses, some of which were 
contributing, some of which were not. What we did was we worked 
with the local planning office, found out the names and 
addresses of all of the property owners within that proposed 
district, sent them a formal letter informing them of the 
pending nomination that had been created by our certified local 
government or local historic preservation board, and notified 
them of the status of that. Then we sent them a letter saying, 
do you want--that basically said, do you want to be part of 
this, do you want this to go ahead or not; and took a vote. And 
over--I can't give you the numbers, but over 50 percent said, 
yes, they did want to be a part of it. So we then at that point 
proceeded.
    We also held a public meeting, at which point we offered an 
opportunity for all of those local residents to come, ask 
questions, have their concerns addressed as far as what it 
meant. So within that district allocation, we took the steps 
of, one, notifying them of the pending nomination so that they 
were aware of it and had some people to contact, word of mouth. 
They would have known about it, but would have been lost in the 
bureaucracy. But we also then took the step of doing a formal 
vote of those people who were property owners and then took a 
public hearing so that they had a chance to have their voices 
heard and any interest expressed.
    One side issue that sometimes causes confusion is in the 
area of if you have a single property owner, if I had a piece 
of property that was historic, and I said, I do not want it 
listed, I have the authority to do that. The distinction that 
sometimes gets confusing or where it causes problems in Wyoming 
is that if you have a public entity that is the sole owner of a 
property, because they are an owner as a public entity, that a 
member of the public can go ahead and have that building listed 
on the National Register. An example would be the local high 
school in Pine Bliss, Wyoming, a small school, where the school 
board did not want the property listed, but the people of the 
community did. So, because it was a public building, the 
property was listed over the objections of the school board. So 
that would be an example of how there are some where you could 
say a sole-source owner could be overridden. But in the case 
where the owner is a private party, no, I am unfamiliar with 
any situations that would allow that to be overridden.
    Mr. Hefley. Some States are more aggressive than others 
about historic preservation. I am reminded of the instance in 
Houston where the Houston Mission Control needed to upgrade and 
was held up for years because of preservation concerns.
    Do you have mechanisms by which you say enough is enough 
and you photograph, document, and move on to the use that it is 
intended for? Anyone who wants to respond.
    Ms. Barrett. I think that is an important role that the 
Advisory Council plays. I think the--in a large and complex 
project, having the Advisory Council and the Federal agency who 
is involved, in that case NASA, you know, working directly on 
the issue is extremely important, and the Advisory Council 
regulations have very clear time frames for response to a 
party. When you have a large and complex project, this can 
take, you know, months of time to have public meetings and to 
get the input from all the different parties. But at some 
point, the Federal agency who is really in charge of the 
process and really sets the pace, the Advisory Council and the 
State Historic Preservation Office do have to come to some kind 
of resolution on the issue. My experience has been that it is 
usually hammered out, there is a good negotiation, and there is 
a solution, and in many cases that solution is documentation 
and demolition.
    Mr. Hefley. Do any of these cases end up in court?
    Ms. Barrett. Very few.
    Mr. Keck. One of the problems that ensues, too, a lot of 
times before it can go to the Advisory Council, the State 
Historic Preservation Office and the Federal agency can spend a 
great deal of time and discussion, and neither of them--both of 
them are wanting to, before it goes to that final arbiter of 
the Advisory Council, are wanting to work it out, and that can 
take extended periods of time. That is not the fault of the 
Act, that is a responsibility that we, the States, need to take 
on, and it is one that has caused problems between my office 
and the National Park Service, and one that we are working to 
get rid of, because we have made the decision that we want to 
establish internally at what point we are in a point of 
disagreement so that we can agree that we disagree and allow it 
to move forward; because it is too easy for the bureaucracy to 
allow something to continue to be debated and looked at when we 
are both in agreement that we mutually have looked at it every 
which way we can, we just can't come to a common agreement. So 
we are trying to set up a framework by which that can happen, 
where it can move on and be established within a time frame. So 
that those mechanisms do exist, it just takes the action of 
kicking it into those mechanisms that has to transpire.
    Mr. Hertfelder. Mr. Hefley, if I could add a footnote to 
your NASA example, as is the case with all highly technical or 
military resources, they have to be upgraded all the time to 
maintain their usefulness, so when Mission Control was proposed 
for demolition to have a new Mission Control for the space 
shuttle and so forth, I don't think anybody was saying that you 
can't do that. But as a result of the consultations between the 
Texas SHPO and the Council and NASA over the fate of that room 
which controlled the Apollo 13 moon landing, the equipment was 
stripped out and saved, as opposed to being demolished and 
thrown away.
    I was informed recently by an article in the Texas SHPO 
newsletter that partially as a result of the Tom Hanks film 
Apollo 13, there has been a renewed interested in the landing 
on the moon, and visitation at the center in Texas is up, and I 
believe with the help of the Disney Company, they are now 
recreating that room for visitors, and because they have the 
equipment which they stored as opposed to getting rid of it, 
they are going to be able to reinstall those consoles in that 
strange green color that they used back then and all of those 
blinking lights and so forth. So there was a happier ending at 
least for the equipment than is often the case with historic 
properties.
    Mr. Hefley. I thought that was probably a good solution, 
although it took so long.
    Virginia had an eligibility dispute at Brandy Station 
Battlefield. What was the outcome of that dispute? Has it 
resulted in any change in how nominations are handled?
    Mr. Keck. Yes, very much so. That was actually a little 
before my time when I came into office, but I think the 
sensitivity that we have today to the wishes of property owners 
is traceable to that event, which was a case where the SHPO's 
office, essentially on its own, decided to register Brandy 
Station Battlefield; and it was an extraordinary case, because 
the battle took place over some 14,000 acres, as I recall. It 
was the largest cavalry battle ever fought in the Western 
Hemisphere, 10,000 mounted men as a prelude to Gettysburg.
    When it is a cavalry battle, it is like a tank battle. 
There is a lot of motion and people cover a lot of ground; and 
you can imagine, it is rural property, and the property owners 
are very upset about that.
    The proper groundwork wasn't done in explaining what 
registration meant and what it didn't mean, as we heard. 
Registration of property does not bind property owners, and so 
anyway, there was a political backlash in Virginia. And our 
philosophy today is to work with the property owners up front; 
if they don't want it, leave it alone.
    Mr. Hefley. I want to thank this panel. I would say to you, 
like I did to the former panel, if you have additional specific 
suggestions about how this piece of legislation should be 
amended, we would very much appreciate getting them; and we 
appreciate your expertise working on the front lines of this 
effort. Thank you very much.
    The next panel, Richard Nettler, Edward Norton, Jack 
Williams.

     STATEMENT OF RICHARD NETTLER, CHAIRMAN OF THE BOARD, 
                      PRESERVATION ACTION

    Mr. Hefley. I would give the admonition that the Chairman 
did that we would like to be through by noon, if possible, and 
if you can keep your statements as brief as possible and still 
get the message in, we would appreciate it; and at the same 
time, any statements you have for the record will be put into 
the record.
    Mr. Nettler. Mr. Chairman, members of the Subcommittee, my 
name is Richard Nettler. I am Chairman of the Board of 
Preservation Action. Preservation Action takes great pleasure 
in testifying before the Subcommittee on National Parks, 
Forests and Lands of the House Resources Committee, and as we 
have many times before, actively working for appropriate 
amendment to the Historic Preservation Act since 1976. Our 
success in 1976, 1980 and 1992, as well as a reauthorization of 
funding every 5 years, has fashioned a unique program that is 
working effectively with maximum cooperation at all levels of 
government.
    We thank you, Mr. Hefley, for the introduction of H.R. 1522 
and for the discussion it has produced within the preservation 
community, a lot of that discussion which we are hearing this 
morning. Preservation Action strongly supports the 
reauthorization of funding for the Historic Preservation Fund 
at $150 million through fiscal year 2002; and we further 
support the codification of Executive Order 13006, which Mr. 
Keck spoke about, signed last year by the President to give 
preference to the reuse of historic buildings in historic 
districts for Federal office space needs.
    We see no serious problem with the current divisions of 
responsibilities between the National Park Service and the 
Advisory Council as regards the administration of section 110, 
but we are very disappointed in the omission of required 
consultation between the two agencies, which the National Park 
Service references to the Advisory Council, which we think 
should continue. This change of present law is not a 
constructive one. Mandatory cooperation between the Council and 
National Park Service is more important than who has the lead 
responsibility on section 110.
    Preservation Action believes that the National Historic 
Preservation Program is not broken and, therefore, there is 
little need for many changes or even some small changes in its 
administration, other than the ones that we have just 
mentioned. The reauthorization of the fund, as set up in law in 
1976, is essential, however, and is needed to ensure the 
continuation of annual appropriations for the States, certified 
local governments, and the tribes.
    Since its inception in 1965, the Historic Preservation Act, 
as amended, has become one of the finest examples of federalism 
that exists in government today. You have heard a lot of that 
from some of the State historic preservation officers who 
spoke. While the following description is an understatement of 
agencies' responsibilities in preserving cultural resources, 
the National Park Service program takes a leading role in 
listing qualified properties on the National Register, 
providing technical services to assist those in how to maintain 
those properties, and developing standards and criteria. The 
Advisory Council reports to the President and administers the 
review of proposed Federal projects that receive Federal funds.
    The Park Service and Advisory Council are ably assisted by 
each State Historic Preservation Office which handles a 
workload associated with National Register designation as well 
as determining the historic structures that should be taken 
into account in the section 106 review. This is done usually in 
a minimum of time, ensuring that reviews and determinations are 
not exacerbating experiences, creating costly delays for 
private citizens, local governments or Federal agencies.
    The ``new kids on the block'' in preservation are the 
certified local governments--2,000, I believe, at this time--
which are mentored by the States in preparation for their 
supporting responsibilities. Whereas National Register 
designation is honorific and makes no requirement upon an 
owner, as has also been discussed, locally designated 
properties are subjected to the provisions of an ordinance as 
passed at the local level. The local government can become a 
partner to the States if it meets the qualifications in the 
Historic Preservation Act for certification.
    In short, historic preservation law has spawned a great 
program that works amazingly well throughout the Federal, State 
and local government system.
    Preservation Action, founded in 1973, is the only national 
organization dedicated solely to grass-roots lobbying for 
historic preservation and neighborhood conservation. We have 
taken leadership roles in advocacy between the Historic 
Preservation Act and the Department of the Interior, including 
the enactment of tax incentives and the authorization of ISTEA 
enhancements. We have watched historic preservation issues come 
onto the screens of many other Federal agencies, such as the 
Departments of Transportation, Housing and Urban Development, 
the Treasury, the Department of Agriculture, the General 
Services Administration, and the Department of Defense.
    In the latter, we see the fates of preservation and the 
military coming together as the Department of Defense and the 
services confront the maintenance of historic military quarters 
and buildings in a fiscal environment of declining budgets. We 
know you are keenly aware of this problem, Mr. Hefley, in your 
responsibility as Chair of the Subcommittee on Military 
Installations and Facilities of the Committee on National 
Security.
    The coming together of preservation and military housing 
appeared on the scene a year ago. In fiscal year 1997, military 
construction appropriations, the services were directed to 
review their inventories of historic quarters and to report to 
Congress on their plans to remove all but the most historically 
significant from the National Register of Historic Places. 
Language in the report noted erroneously that work on homes 
must receive approval from the various historic preservation 
boards. Language further required the reports to note what 
statutory impediments are being encountered in implementing 
such plans, i.e. those to remove properties from the National 
Register.
    Efforts to change this language last year were successful 
only in requiring consultation with the Advisory Council on the 
reports and made no attempt to clarify erroneous information 
about the National Register and the role of the Advisory 
Council. Much of that clarification you have heard this 
morning.
    The reports from the services were forwarded to Congress in 
April, and we were pleased that both the Army and the Navy 
stated that their historic quarters were not a significant 
drain on their resources and that effective management was the 
answer to the military housing problem.
    In fiscal year 1998, military construction appropriations 
language was again included, also attacking the National 
Register. The false notion that maintenance of historic 
military housing is more expensive has never been 
substantiated. There is no required treatment for historic 
housing, no mandates for a preservation outcome, and in fact, 
there is an economic value to these structures simply because 
they are historic. Indeed, over the last year, the Army has 
been working closely with the Advisory Council and other 
historic preservation groups to fashion its own regulations 
dealing with its historic properties, and also looking at ways 
in which it can privatize many of those properties in a way 
that will take the heat off of the agencies in terms of 
budgeting funds.
    I have taken up a few minutes to give some background on 
historic buildings in the military because we believe there are 
solutions. These solutions, however, will only come to fruition 
if there is a strong, efficient National Register and an 
expeditious system of Advisory Council review of Federal 
actions that is not beset with costly delays and decision-
making.
    On the Defense Department front, we have watched the 
privatization initiative with interest, but note it is very 
slow moving. Our interest in finding answers that work for both 
preservation and the military is advancing as Preservation 
Action is currently setting up a meeting to bring our 
experiences with private developers and capital, in a 
successful revitalization of commercial historic rehab using 
tax credits, to the table to assist Department of Defense and 
its services in finding creative answers to the maintenance of 
their historic buildings. This could be a precedent, in fact, 
for other agencies; and we have discussed this also with the 
General Services Administration.
    In closing, Preservation Action most strongly supports the 
needed reauthorization of funds for the States, certified local 
governments and tribes. It is critical to maintain a strong and 
adequately funded program at the Federal level to ensure that 
all Federal agencies and the private sector perceive the 
historic preservation program and its designation and review 
process as a cost-effective guide to the creative use of 
historic structures for 20th century purposes. Section 110 is 
the critical tool needed to correct erroneous agency and 
departmental notions about the workings of the historic 
preservation programs and to assist Federal agencies in the 
protection and maintenance of the historic building inventory. 
A clear understanding of historic preservation will open new 
avenues for agencies to involve public-private partnerships to 
assist in meeting their preservation responsibilities.
    We have taken a more limited approach in our testimony 
today on H.R. 1522 in the interest of illustrating how the work 
of this Committee impacts many other committees of Congress and 
agencies of Federal Government; and we are pleased to comment 
before you today and make ourselves available, as well as 
others, to answer questions.
    Thank you very much.
    [The prepared statement of Mr. Nettler may be found at end 
of hearing.]

 STATEMENT OF EDWARD M. NORTON, VICE PRESIDENT--LAW AND PUBLIC 
        POLICY, NATIONAL TRUST FOR HISTORIC PRESERVATION

    Mr. Norton. Thank you, Congressman Hefley, and thank you 
very much for the opportunity to testify here today.
    I would like to begin by expressing the National Trust's 
appreciation for your introduction of this legislation for 
reauthorization of the Historic Preservation Fund, and also to 
express our appreciation for the process that you have engaged 
in in this reauthorization. We have appreciated very much the 
opportunity to meet with you personally and work with you and 
your staff over the last 6 months in developing this 
legislation; and we think it has been a very productive 
process, and we thank you for that.
    I will submit my testimony for the record and be very 
brief.
    I would like to begin on a personal note and say that I 
just returned from New Mexico where the National Trust for 
Historic Preservation held its annual conference, a gathering, 
a rally, a rendezvous, if you will, of more than almost 2,000 
preservations from all over the country, representing all 
segments of the preservation partnership that have been 
discussed here today. I must say that I was impressed with the 
vibrancy and the energy and the grass-roots support at the 
local level. It really made you feel and taste what historic 
preservation does on the ground in communities.
    The other aspect of that that was particularly noticeable--
to me, at least--was the importance of this preservation 
partnership that you have heard referred to several times 
today, in particular, the role of the States and local 
government and State and local private organizations in that 
partnership. I think, after listening to the testimony today, 
that actually the State historic preservation officers have 
been modest in their statement of really the role that they 
perform under that--in that Federal, State and local 
partnership.
    We strongly support the reauthorization of the Historic 
Preservation Fund. The States, of course, receive the bulk of 
the funding from the Historic Preservation Fund, and we think 
that that is exactly as it should be.
    You noted in your opening statement that the National Trust 
is moving to support from the private sector. Historically, we 
have received, as you know, an appropriation from the Historic 
Preservation Fund that reached almost $7 million in the early 
1990s and then in 1996, 1997 and 1998 has been reduced to $3.5 
million, and after 1998 we will no longer receive an 
appropriation. We have supported that. But we do not support 
reductions in the appropriations for the Historic Preservation 
Fund, and we would urge this Committee, as the authorizing 
Committee and the Committee of primary jurisdiction, in its 
development of report language dealing with the 
reauthorization, to emphasize the important role that the State 
historic preservation offices and the tribes play, and that the 
funding that has, over time and historically, been received by 
the National Trust, should not be lost to the Historic 
Preservation Fund, but should, in fact, go to the States and 
the tribes and the other preservation partners, which will play 
an increasingly important role.
    You have heard a number of the activities referred to here 
today about the States' role in the implementation of the 
Federal-State partnership, and as historic preservation builds 
in its successes, that role will not diminish. And the fact is, 
it will increase, and we think it is an enormously productive 
use of Federal resources to support the State and tribal 
element of the Federal-State partnership; and we would urge 
that that continue and it continue at at least the same level.
    I would also like to comment very briefly--when you 
mentioned it in your opening statement, that the National Trust 
will no longer receive an appropriation from the Historic 
Preservation Fund, and that is a result which we support and we 
have worked very carefully to achieve with members of the 
Appropriations Committee--the legislation that we are 
discussing today, H.R. 1522, actually amends the Historic 
Preservation Act to remove the National Trust authorization to 
receive any funds.
    I would point out that there have been other circumstances, 
other than the general appropriation from the historic 
preservation fund, that we have received appropriations, such 
as for disaster relief; and simply eliminating our entire 
authority to receive any appropriation may have unintended and 
unfortunate consequences, and we would ask, as we have in the 
past, that that be looked at.
    I think that the other major topics have been covered. We 
worked very closely with the General Services Administration on 
the implementation of the executive order. The fact that we 
support the provision in your legislation which codifies the 
executive order should not reflect a lack of confidence in our 
authority and Mr. Peck, the Administrator of GSA, but we do 
think that that does give a very important and additive 
incremental emphasis on the executive order and will help 
people at the State and local level who are trying to ensure 
that that executive order is, in fact, being carried out. We 
would strongly endorse and support the codification of the 
executive order in your legislation.
    Finally, I think since we met with you, Congressman Hefley, 
a number of developments have occurred with respect to the 
implementation of section 110. The National Park Service is now 
finalizing its guidelines, and we think that the removal of the 
110 function from the general jurisdiction of the National Park 
Service is probably not a wise step to take at this time. Thus, 
I agree with what you said in your remarks that what we should 
do here is--with the additions that I have mentioned, we should 
simply go ahead and reauthorize the Historic Preservation Fund.
    Thank you very much.
    [The prepared statement of Mr. Norton may be found at end 
of hearing.]

  STATEMENT OF JACK WILLIAMS, AIA, PRESIDENT-ELECT, NATIONAL 
              ALLIANCE OF PRESERVATION COMMISSIONS

    Mr. Williams. Mr. Chairman, I would like to thank James 
Hansen, Chairman of the Subcommittee, for the opportunity to 
testify on H.R. 1522 to extend authorization of the National 
Historic Preservation Fund.
    My name is John Williams. I am an architect in private 
practice in Seattle where I have a partnership with Robert 
Hoshide. I also serve on two historic preservation 
commissions--one in Oysterville, Washington, the Oysterville 
Design Review Board; and the second in Seattle, Washington, the 
Pike Place Market Historical Commission. Because of these 
activities, I was elected to the National Alliance of 
Preservation Commissions where I serve as chairman of its board 
of directors. It is from these two vantage points that I wish 
to describe my view of the value of the National Historic 
Preservation Fund.
    The National Alliance of Preservation Commissions is a 
nonprofit organization committed to serving historic 
commissions created by city or county ordinances. We serve over 
2,000 commissions that work at the local level. Each year, 
10,000 citizens from our communities volunteer their time as 
public servants. They do so because preservation not only 
protects our culture's historic resources; it creates jobs, it 
saves neighborhoods, and it fosters pride in our communities.
    Commonly, historic preservation commissions identify 
historic resources, nominate them to local registers, and enact 
protective measures to preserve our heritage; and in addition, 
these boards create educational programs and stimulate private 
investments.
    As commissions, we can honor many of our responsibilities, 
but we cannot do it alone. We are dependent upon our 
preservation partners. They must be adequately funded for our 
commissions to be able to act effectively. For example, over 80 
percent of our commissions seek assistance from their State 
Historic Preservation Office, and 50 percent receive help from 
the National Trust for Historic Preservation, whereas 25 
percent are helped directly by the National Park Service. All 
of these receive funds through the National Historic 
Preservation Fund.
    It is, however, the certified local government program 
which provides an explicit line of support to commissions. The 
National Historic Preservation Fund provides technical 
assistance as well as small, matching funds for planning and 
restoration. Over 1,000 communities voluntarily participate in 
this event.
    Through my participation in the National Alliance of 
Preservation Commissions, I have seen the value of preservation 
partnerships. In the State of Washington, we have training 
funded by CLG grants; and in a similar fashion, in the State of 
Missouri, I was a participant in training, as well, of handbook 
production. This program is government at its best. It is an 
effective, cooperative program which we sponsored at the 
Federal level and enacted and controlled at the local level.
    Finally, it is from Oysterville that I come, and its local 
government cannot participate in the CLG program. However, we 
still benefit by forming partnerships with organizations 
sponsored by the National Historic Preservation Fund. We were 
able to secure consultant assistance to create new guidelines 
only through the abilities of our preservation partners, 
notably the National Trust, who provided funding through grant 
programs; SHPOs, who provided advice and guidance in the person 
of Kay Austin, our CLG coordinator and preservation planner; 
and finally from the National Park Service. Funding for our 
effort and for our preservation partners comes from the 
National Historic Preservation Fund.
    Because of my vantage point as a preservationist doing 
commission work at the local level, the local level of 
government, I understand my dependence on our partners at the 
State office and at the National level. I know that their 
ability to assist me in the work that I and my 10,000 fellow 
commissioners do comes through the financial support of the 
National Historic Preservation Fund. The partnership works, it 
is effective and efficient. I urge extension of the 
authorization of the National Historic Preservation Fund, and I 
thank you for allowing me to testify.
    Mr. Hefley. I thank all of you. Questions?
    Mr. Faleomavaega. I want to thank the gentlemen for their 
testimony, Mr. Chairman.
    At least we can come to one basic conclusion in our hearing 
this morning. There is consensus about requesting 
reauthorization of the current law. Procedurally, some of the 
suggestions that were offered by Mr. Hefley in his bill are 
something that we need to work on a little better.
    I would like to ask Mr. Nettler to comment on the 
provisions of the bill, as he had noted in his statement, if 
that would be all right, to submit for the record.
    Mr. Nettler. Yes, I will.
    [The information may be found at end of hearing.]
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Hefley. Thank you. What has been the working 
relationship of the National Park Service? Has that worked 
well?
    Mr. Norton. Well, Congressman Hefley, from the perspective 
of the National Trust, it has worked I would say very well, 
extremely well, on a number of different fronts, both the 
historic preservation, the National Historic Preservation Act 
and generally relating to our national parks. As you probably 
know, of the 374 units of the national park system, I think, of 
those, 216 or 220 of them were created for their historic 
values. So the national trusts work with the National Park 
Service on a number of problems relating to the national parks 
and, specifically, the historic resources in the parks; and 
also with respect to the implementation of the National 
Historic Preservation Act, the National Park Service and 
Department of Interior's responsibility under section 4(f) of 
the Transportation Act. We found that relationship to be 
extremely positive in every respect.
    Mr. Hefley. Let me ask our representative from the AIA here 
perhaps, what is your professional appraisal of the 
preservation movement industry today? Is there an industry? We 
heard earlier that there are more plasterers and so forth than 
there have ever been.
    In other words, I guess what I am getting at, do we need 
something like the National Center for Preservation Technology 
in Louisiana, or is private industry taking care of those kinds 
of things?
    Mr. Williams. I think that, for the most part, preservation 
succeeds where partnerships are active. I think that we do need 
the center in Louisiana. I would also like to say in regards to 
Mr. Hansen's concerns about whether or not there are plasterers 
available and there are painters available, there are fine 
mechanics and tradesmen who can produce any work of plaster 
that we see around us today. I have never failed in a 
preservation effort at the mechanics level. There are people 
there that can do the job; that is not a concern.
    I think also one of the things that is noteworthy about 
preservation construction is that it keeps construction dollars 
local. I think alluded to today was the fact that many more of 
the construction dollars go into the laborers' hands, as 
opposed to the suppliers' hands; and classically, laborers are 
local. So I think it is a fitting partnership as it exists now.
    Mr. Faleomavaega. Mr. Chairman, if I could, I would like to 
ask members of the panel, it was noted earlier--in earlier 
testimony; I think it was by Director Stanton. Do you agree 
that a 4- or 5-year period for the approval process of an 
historic site is a reasonable time period for the process to 
function? To me, it seems inordinately long; it takes quite a 
while to approve the process.
    Do you think a 4- or 5-year period is too long, or is it 
just right? Is that the usual time schedule? Are there a lot of 
bureaucratic problems involved here, or do you think that the 
way it is now it is functioning pretty well?
    Mr. Nettler. Well, let me comment first. I think there were 
a number of different processes that were discussed, both the 
process in terms of approving national landmark designations or 
designations to the National Register, the process of working 
with the States, the process of drafting regulations, which I 
think was the one that we were talking about in terms of a 4- 
or 5-year process, and the process of reviewing applications 
for tax credits as well.
    I think the process in terms of tax credits, in terms of 
applications to the National Register, is probably a time frame 
that is--that works very well, and it serves both the interests 
of those who are seeking the credits, which are generally the 
property owners and the developers, and those who are seeking 
to preserve, which may be the States, and ensuring that there 
is adequate participation by property owners and those who are 
otherwise affected.
    The process in terms of adopting regulations, which I think 
is probably closer to the 4- or 5-year situation, is not a 
process that serves the interest of the community or those who 
are affected by those regulations. I think it is important that 
the regulatory process be one that works much, much faster than 
that, recognizing the fact that those regulations affect a wide 
variety of people in all of our States and there need to be 
comments received from both the industry, those who are 
affected in the communities, and the State and local 
governments. But I do think that 4 or 5 years is simply too 
long a process.
    Mr. Faleomavaega. Mr. Norton, is that pretty much in your--
--
    Mr. Norton. I think we would defer, Congressman, to people 
who have much more experience on the ground. I think that there 
are--my general observation, which is, I think, from a fairly 
elevated or rarified level, is that there are probably some 
projects that get caught up and take too long, but there are 
many, many others that get resolved in an orderly and 
expeditious way; and sometimes I think--I don't think it is 
irrelevant or inappropriate to look at where the process goes 
awry, but on the other hand, I think that we should be careful 
not to overreact to those circumstances in which it does go 
awry. I don't think we want to--I think if there are problems, 
we should be careful to fine-tune it, rather than take 
draconian measures to change it.
    Mr. Faleomavaega. Mr. Williams?
    Mr. Williams. I will defer to Mr. Nettler. This is really a 
little bit beyond my area of expertise.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hefley. You know, at the outset, I said that we have a 
good program and I think the testimony has exemplified that 
today; I think everybody agrees that we have a pretty good 
program. If there are ways that we can improve this program, 
now would be the time to do it, and so again, any specific 
suggestions you might have we would like to have that.
    This, in no way, I think, should be a controversial bill. 
There are no particular politics in this--no Democrat, no 
Republican, really no liberal-conservative philosophical 
differences. I think we have seen today that we are all headed 
toward the same goal. So we will work together, we will work 
with your side to try to see that you are comfortable with it 
and that we are comfortable with it, and I think we can come up 
with something we will all be proud of.
    Mr. Faleomavaega. I want to say to the gentleman, the 
sponsor of the bill, that I think the intentions are 
significant in the fact that we just want to fine-tune the 
current Act, and hopefully there are areas, with your 
recommendations--and we have heard both from the community and 
from the appropriate Federal agencies--where we can work 
together and see if we can make improvements on the current 
Act.
    So I thank the gentleman and I thank our friends who have 
testified this morning.
    Mr. Hefley. Thank you very much for being with us.
    The Committee stands adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T6552.001
    
    [GRAPHIC] [TIFF OMITTED] T6552.002
    
    [GRAPHIC] [TIFF OMITTED] T6552.003
    
    [GRAPHIC] [TIFF OMITTED] T6552.004
    
    [GRAPHIC] [TIFF OMITTED] T6552.005
    
    [GRAPHIC] [TIFF OMITTED] T6552.006
    
    [GRAPHIC] [TIFF OMITTED] T6552.007
    
    [GRAPHIC] [TIFF OMITTED] T6552.008
    
    [GRAPHIC] [TIFF OMITTED] T6552.009
    
    [GRAPHIC] [TIFF OMITTED] T6552.010
    
    [GRAPHIC] [TIFF OMITTED] T6552.011
    
    [GRAPHIC] [TIFF OMITTED] T6552.012
    
    [GRAPHIC] [TIFF OMITTED] T6552.013
    
    [GRAPHIC] [TIFF OMITTED] T6552.014
    
    [GRAPHIC] [TIFF OMITTED] T6552.015
    
    [GRAPHIC] [TIFF OMITTED] T6552.016
    
    [GRAPHIC] [TIFF OMITTED] T6552.017
    
    [GRAPHIC] [TIFF OMITTED] T6552.018
    
    [GRAPHIC] [TIFF OMITTED] T6552.019
    
    [GRAPHIC] [TIFF OMITTED] T6552.020
    
    [GRAPHIC] [TIFF OMITTED] T6552.021
    
    [GRAPHIC] [TIFF OMITTED] T6552.022
    
    [GRAPHIC] [TIFF OMITTED] T6552.023
    
    [GRAPHIC] [TIFF OMITTED] T6552.024
    
    [GRAPHIC] [TIFF OMITTED] T6552.025
    
    [GRAPHIC] [TIFF OMITTED] T6552.026
    
    [GRAPHIC] [TIFF OMITTED] T6552.027
    
    [GRAPHIC] [TIFF OMITTED] T6552.028
    
    [GRAPHIC] [TIFF OMITTED] T6552.029
    
    [GRAPHIC] [TIFF OMITTED] T6552.030
    
    [GRAPHIC] [TIFF OMITTED] T6552.031
    
    [GRAPHIC] [TIFF OMITTED] T6552.032
    
    [GRAPHIC] [TIFF OMITTED] T6552.033
    
    [GRAPHIC] [TIFF OMITTED] T6552.034
    
    [GRAPHIC] [TIFF OMITTED] T6552.035
    
    [GRAPHIC] [TIFF OMITTED] T6552.036
    
    [GRAPHIC] [TIFF OMITTED] T6552.037
    
    [GRAPHIC] [TIFF OMITTED] T6552.038
    
    [GRAPHIC] [TIFF OMITTED] T6552.039
    
    [GRAPHIC] [TIFF OMITTED] T6552.040
    
    [GRAPHIC] [TIFF OMITTED] T6552.041
    
    [GRAPHIC] [TIFF OMITTED] T6552.042
    
    [GRAPHIC] [TIFF OMITTED] T6552.043
    
    [GRAPHIC] [TIFF OMITTED] T6552.044
    
    [GRAPHIC] [TIFF OMITTED] T6552.045
    
    [GRAPHIC] [TIFF OMITTED] T6552.046
    
    [GRAPHIC] [TIFF OMITTED] T6552.047
    
    [GRAPHIC] [TIFF OMITTED] T6552.048
    
    [GRAPHIC] [TIFF OMITTED] T6552.049
    
    [GRAPHIC] [TIFF OMITTED] T6552.050
    
    [GRAPHIC] [TIFF OMITTED] T6552.051
    
    [GRAPHIC] [TIFF OMITTED] T6552.052
    
    [GRAPHIC] [TIFF OMITTED] T6552.053
    
    [GRAPHIC] [TIFF OMITTED] T6552.054
    
    [GRAPHIC] [TIFF OMITTED] T6552.055
    
    [GRAPHIC] [TIFF OMITTED] T6552.056
    
    [GRAPHIC] [TIFF OMITTED] T6552.057
    
    [GRAPHIC] [TIFF OMITTED] T6552.058
    
    [GRAPHIC] [TIFF OMITTED] T6552.059
    
    [GRAPHIC] [TIFF OMITTED] T6552.060
    
    [GRAPHIC] [TIFF OMITTED] T6552.061
    
    [GRAPHIC] [TIFF OMITTED] T6552.062
    
    [GRAPHIC] [TIFF OMITTED] T6552.063
    
    [GRAPHIC] [TIFF OMITTED] T6552.064
    
    [GRAPHIC] [TIFF OMITTED] T6552.065
    
    [GRAPHIC] [TIFF OMITTED] T6552.066
    

</pre></body></html>
